<html>
<title> - RESIDENTIAL THROUGH-THE-FENCE AGREEMENTS AT PUBLIC AIRPORTS: ACTION TO DATE AND CHALLENGES AHEAD</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                     RESIDENTIAL THROUGH-THE-FENCE
           AGREEMENTS AT PUBLIC AIRPORTS: ACTION TO DATE AND
                            CHALLENGES AHEAD

=======================================================================

                               (111-136)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           September 22, 2010

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                  U.S. GOVERNMENT PRINTING OFFICE
58-459                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8cebfce3cceff9fff8e4e9e0fca2efe3e1a2">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee               TOM GRAVES, Georgia
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California
HANK JOHNSON, Georgia

                                  (ii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Blue, Brent M.D., Founder of throughthefence.org.................    16
Comer, Carol L., Aviation Programs Manager, Georgia Department of 
  Transportation.................................................    16
Coyne, James K., President, National Air Transportation 
  Association....................................................    16
Crook, Ann B., Airport Manager, Elmira Corning Regional Airport..    16
Lang, Catherine M., Acting Associate Administrator, Office of 
  Airports, Federal Aviation Administration......................    16
Schrader, Hon. Kurt, a Representative in Congress from the State 
  of Oregon......................................................    14
Swecker, Mitch, State Airports Manager, Oregon Department of 
  Aviation.......................................................    16

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Cummings, Elijah E., of Maryland.................................    50
Johnson, Hon. Eddie Bernice, of Texas............................    57
Mitchell, Hon. Harry E., of Arizona..............................    60
Oberstar, Hon. James L., of Minnesota............................    61

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Blue, Brent M.D..................................................    65
Comer, Carol L...................................................    74
Coyne, James K...................................................    80
Crook, Ann B.....................................................    85
Lang, Catherine M................................................    89
Schrader, Hon. Kurt..............................................   101
Swecker, Mitch...................................................   102

                       SUBMISSIONS FOR THE RECORD

Petri, Hon. Thomas E., a Representative in Congress from the 
  State of Wisconsin, statements for the record:
      Aircraft Owners and Pilots Association, Craig L. Fuller, 
        President................................................     5
      Experimental Aircraft Association..........................     9


[GRAPHIC] [TIFF OMITTED] T8459.001

[GRAPHIC] [TIFF OMITTED] T8459.002

[GRAPHIC] [TIFF OMITTED] T8459.003

[GRAPHIC] [TIFF OMITTED] T8459.004

[GRAPHIC] [TIFF OMITTED] T8459.005

[GRAPHIC] [TIFF OMITTED] T8459.006

[GRAPHIC] [TIFF OMITTED] T8459.007

[GRAPHIC] [TIFF OMITTED] T8459.008

[GRAPHIC] [TIFF OMITTED] T8459.009

[GRAPHIC] [TIFF OMITTED] T8459.010

[GRAPHIC] [TIFF OMITTED] T8459.011

[GRAPHIC] [TIFF OMITTED] T8459.012

[GRAPHIC] [TIFF OMITTED] T8459.013

[GRAPHIC] [TIFF OMITTED] T8459.014

[GRAPHIC] [TIFF OMITTED] T8459.015

[GRAPHIC] [TIFF OMITTED] T8459.016

[GRAPHIC] [TIFF OMITTED] T8459.017

[GRAPHIC] [TIFF OMITTED] T8459.018

[GRAPHIC] [TIFF OMITTED] T8459.019

[GRAPHIC] [TIFF OMITTED] T8459.020

[GRAPHIC] [TIFF OMITTED] T8459.021

[GRAPHIC] [TIFF OMITTED] T8459.022

[GRAPHIC] [TIFF OMITTED] T8459.023

[GRAPHIC] [TIFF OMITTED] T8459.024

[GRAPHIC] [TIFF OMITTED] T8459.025

[GRAPHIC] [TIFF OMITTED] T8459.026

[GRAPHIC] [TIFF OMITTED] T8459.027

[GRAPHIC] [TIFF OMITTED] T8459.028



HEARING ON RESIDENTIAL THROUGH-THE-FENCE AGREEMENTS AT PUBLIC AIRPORTS: 
                  ACTION TO DATE AND CHALLENGES AHEAD

                              ----------                              


                     Wednesday, September 22, 2010

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The Committee met, pursuant to call, at 10:13 a.m., in room 
2167, Rayburn House Office Building, the Honorable James 
Oberstar [Chairman of the Full Committee] presiding.
    Mr. Oberstar. The Committee on Transportation and 
Infrastructure will come to order. Apologies from the Chair for 
being delayed; the traffic jams had traffic jams this morning. 
I like August much better, I told Mr. Petri; there aren't as 
many people around Washington; traffic isn't so horrible.
    This morning we gather to review a very intriguing subject 
that has existed for some time but hasn't come to the fore as a 
subject of public policy concern in all of my 25 years of 
working on aviation issues, residential through-the-fence 
agreements at public airports. Today, we are exploring the 
effects of residential through-the-fence agreements at the 
Nation's public airports. We are seeking a balance between the 
interests of homeowners who own and operate aircraft, and the 
government and the public at large, who have invested 
substantial amounts of money to develop airports.
    When this issue came up, I thought immediately of the 
former president of AOPA, Phil Boyer, who was sent off to the 
sunset in a lovely event right here in this room, in fact, 
among other events that were done for him, with a picture of 
Phil rolling his airport out of his hangar, to which his home 
was attached, and moving right over to the adjacent airport.
    That is really what this is about, agreements between the 
State and local governments who own and operate the airports, 
and, on the other hand, people who have land adjacent to the 
airports. These colloquially called through-the-fence 
agreements exist for a very unique purpose: they allow 
homeowners to park their personal aircraft at home, and taxi 
the aircraft to and from airport runways and taxiways at their 
leisure. I thought of that this morning. It might have been a 
lot easier to get to downtown Washington than to struggle 
through the traffic.
    These are people who are very keen on aviation, who do 
service to the Nation promoting general aviation; they watch 
over the airport. They have invested in a lifestyle that allows 
them to support their airports and to support general aviation. 
And a majority of those who have the privilege or negotiated 
the agreement to have through-the-fence access exercise their 
privilege with restraint and a sense of civic responsibility.
    Yet, there are challenges. If you read, as I did last 
night, through all the testimony, there are some very 
intriguing comments. Challenges for the FAA, for local 
airports, and homeowners, challenges that have developed 
because of these agreements. In certain situations, the 
agreement may hold back airport development; it may prevent an 
airport from expanding; it may prevent critical safety 
improvements; it may even result in the access holders' 
improper use of airport property for non-aviation purposes.
    Since a year ago, the FAA has approved more than $2.8 
billion in Federal grants for airport infrastructure. They are 
made to support our national system of integrated airports. 
Each of them has a role in each I say as an indispensable part 
of our national airport system. When these through-the-fence 
agreements become a constraint on airport development, or when 
they create safety issues that limit the ability of pilots to 
use an airport, then that return on investment is diminished. 
So there are some situations, there are cases where that in 
fact is happening, according to the documentation we have 
received that airports and the FAA has supplied for us.
    Last year, FAA began to deal with the issue by publishing a 
policy that would discourage through-the-fence agreements. The 
FAA typically received a large number of comments on the 
policy. Many took a rather opposite view of the decision to 
discourage agreements and some are uncertain about the future 
of such through-the-fence agreements in the aftermath of FAA'S 
publication of that policy.
    In September of this year, just a few days ago, the FAA 
published revisions to its policy that take into account some 
of the criticisms that they received. Under the FAA proposals, 
homeowners will be able to continue to enjoy access when their 
airports comply with reasonable requirements to ensure that all 
points of access are accounted for and mapped. Homeowners and 
airport owners must work to ensure that, in the future, these 
through-the-fence access agreements do not establish or lead to 
safety issues or legal issues that FAA has documented in the 
past.
    We will hear from Kate Lang, of FAA, the Office of 
Airports, who has been doing a splendid job in that position 
for many, many years; is now the acting. Maybe some day they 
will do the right thing and make her the Director. I also look 
forward to hearing other witnesses who have personal experience 
and expertise on these issues.
    I especially want to thank our Committee colleague, 
Congressman Graves, Missouri Graves, for bringing this issue to 
my attention and to the Committee's attention. The gentleman 
has been a very strong supporter of general aviation; is a 
knowledgeable and vigorous advocate for general aviation. When 
he says there is an issue, we pay attention and we have to 
address those issues that are raised.
    And also Mr. Schrader, whom I saw just a few weeks ago in 
Portland at a bridge event, reconstruction and repainting and 
realignment. It was a great infrastructure day.
    Now I will yield to my very good friend, the Ranking 
Member, Mr. Petri.
    Mr. Petri. Again, thank you very much, Mr. Chairman, for 
holding this hearing today.
    Residential through-the-fence agreements are not new. In 
fact, some agreements date back to the 1970's and others were 
drafted with the assistance and approval of local FAA 
officials. Simply put, a residential through-the-fence 
agreement is an agreement between an airport operator and a 
private landowner who owns residential property adjacent to the 
airport, commonly referred to as a hangar home. The agreement 
sets forth the terms and conditions for the private landowner 
to have direct access to the airport from his or her own 
property.
    While the Federal Aviation Administration has never been a 
huge fan of residential through-the-fence agreements, in 2009, 
the agency proposed to eliminate all residential through-the-
fence agreements. Earlier this month, after receiving hundreds 
of comments on the 2009 proposal, the FAA published new 
guidance and again asked for public comment. In its recently 
published document, the FAA proposes to prohibit any new 
residential through-the-fence agreements while requiring a two-
year review of existing agreements and a review upon renewal of 
any existing agreements.
    This is an issue that impacts a very small universe of 
public general aviation airports in the United States. Of the 
3,300 airports in the National Plan of Integrated Airport 
Systems, the FAA has provided a list of only 75 public general 
aviation airports with residential through-the-fence 
agreements, which represents less than 3 percent of all public 
airports in these United States. But for those airports and 
landowners impacted by this change in FAA policy, this is a 
very important property right and aviation issue.
    Opponents of residential through-the-fence agreements, 
including the FAA, claim that these agreements are more trouble 
than they are worth and allow incompatible land use near 
airports that will constrain future airport development. 
Residential through-the-fence agreements may not make sense at 
every airport, I am sure they don't, but they do make sense at 
many locations and in some communities provide much needed 
aviation and local property tax revenue.
    While there may be isolated issues at some locations, in 
general, hangar homes are owned by aviation enthusiasts who 
love the industry and lifestyle. What better neighbors could a 
general aviation airport ask for?
    Proponents of residential through-the-fence agreements also 
point out that airports should have the flexibility to enter 
into these agreements if they want to, and can remain in 
compliance with their grant assurances. After all, airport 
authorities are locally accountable government entities.
    Today we have before us the FAA and representatives of 
interested groups to testify about residential through-the-
fence agreements. I am pleased that parties on both sides of 
the issue have joined us here today to give us their insights. 
It is important that the Committee hear from all sides of this 
issue to gain a better understanding of what residential 
through-the-fence agreements are, who is impacted, what issues 
are related to the use of such agreements, and what effect the 
FAA'S proposed guidance will have on private property rights 
and on small airports and communities.
    I want to thank the witnesses for joining us today and look 
forward to hearing from them.
    And before I yield back, I would ask that statements by the 
Experimental Aircraft Association and the Aircraft Owners and 
Pilots Association be made part of the hearing record.
    Mr. Oberstar. Without objection, so ordered.
    [The referenced information follows:]

    [GRAPHIC] [TIFF OMITTED] T8459.029
    
    [GRAPHIC] [TIFF OMITTED] T8459.030
    
    [GRAPHIC] [TIFF OMITTED] T8459.031
    
    [GRAPHIC] [TIFF OMITTED] T8459.032
    
    [GRAPHIC] [TIFF OMITTED] T8459.033
    
    [GRAPHIC] [TIFF OMITTED] T8459.034
    
    [GRAPHIC] [TIFF OMITTED] T8459.035
    
    Mr. Petri. Again, thank you for indulging my use of time.
    Mr. Oberstar. Oh, my goodness, no. It was a very thoughtful 
statement.
    The Chair will now yield to Ms. Johnson in her new 
neckpiece.
    Ms. Johnson of Texas. Thank you very much.
    Mr. Oberstar. I am sure you would rather have a more 
stylish one, but glad to see you are recovering very well from 
your most recent operation.
    Ms. Johnson of Texas. Thank you.
    Mr. Oberstar. Thank you for being here this morning.
    Ms. Johnson of Texas. Thank you very much and thank you for 
holding this hearing today on residential through-the-fence 
agreements.
    None of the public airports in my district employ through-
the-fence agreements; however, there are between 7 and 11 
airports in Texas with such agreements. It seems that this is a 
very personal and emotional issue for many general aviation 
pilots whose planes are parked at their homes and who take 
advantage of direct access to airport taxiways.
    I can understand their concerns if they have grown 
accustomed to the use and benefits of the through-the-fence 
agreements; however, I can also understand the safety and land 
use concerns raised by the FAA. This Committee takes 
transportation safety issues very seriously, and I believe the 
FAA raises some valid concerns.
    In reviewing through-the-fence agreements, the FAA found 
incidents, such as incursions of pets, people, and private 
vehicles, on airport property, the construction of structures 
that interfere with navigational radio signals and the ability 
of airports to make safety-critical improvements to runways and 
taxiways.
    I am glad that we are taking time to hear from both sides 
of this issue and hope that we can find a solution agreeable to 
all interested parties.
    I thank you, Mr. Chairman and Mr. Petri, for holding the 
hearing this morning. I yield back.
    Mr. Oberstar. The Chair will now yield to Mr. Graves, 
sponsor of the legislation and initiator of this hearing.
    Mr. Graves. Thank you, Mr. Chairman. I want to thank you 
and Representative Ranking Member Mica for holding this 
hearing. This is obviously a great way to bring this issue to 
light.
    For those of you who don't know, or folks out there that 
don't know, residential through-the-fence agreements are 
agreements between an airport sponsor, and that might be the 
city, the county, or a municipality, between them and an 
individual with privately owned land adjacent to an airport 
that provides that landowner and their aircraft access to the 
airport.
    You know, nothing that the FAA does prohibits anybody from 
developing that land, and I hear a lot of talk about not being 
able to develop land or being able to expand an airport. Yet, 
all an residential through-the-fence agreement does is allow 
access. You can still develop that land. You can do anything 
you want to, for that matter, with that land, within reason.
    Of the few thousand public use general aviation airports, 
there are roughly 75 known airports with residential through-
the-fence agreements. In some cases, such as the 75 mentioned 
above, the airport sponsor and the airport manager might feel 
these agreements benefit the airport and surrounding areas; 
whereas, in other instances, they simply might not like these 
agreements. But the decisions made about existing potential 
agreements are deliberated by the local community, and they 
should be; they own the airport, they have the investment in 
the airport. It should be up to the local community and 
municipality to make that decision.
    I am not saying that every airport should have a 
residential through-the-fence agreement. I am just saying it 
should be their right to choose.
    With that said, I am sure there are a few extreme examples 
out there of residential through-the-fence agreements that can 
be improved, which I am sure I know some of our panelists are 
going to point that out. But, likewise, I think there are many 
more great examples of existing through-the-fence agreements 
which could be a model for future agreements.
    Earlier this year I introduced legislation, which is H.R. 
4815, in the hopes of providing more uniformity and developing 
a framework for all of these agreements. I made a few changes 
post-introduction, but we shouldn't take the easy way out, I 
believe, and ban all future residential through-the-fence 
agreements. I think with proper planning and coordination 
amongst all the stakeholders we can find some reasonable 
solutions.
    The Federal Aviation Administration recently published, as 
has been pointed out today, in the Federal Register a proposal 
which would allow existing agreements to remain in effect. 
However, it clearly prohibits any new residential through-the-
fence agreements. I believe the FAA policy on existing 
agreements is a great step in the right direction, but I also 
believe that you have really missed the mark on future 
arrangements, and without significant changes to the proposal, 
I just will not support it.
    I firmly believe that residential through-the-fence 
agreements can safely and efficiently coexist with GAA airports 
now and in the future, and I also believe the Federal 
Government should protect its investments. But I don't think 
the agreements we are discussing today adversely, or without 
exception, affect an airport's authority, their ability to 
operate or the FAA'S ability to protect their investment.
    Again, this comes down to a city's choice or a county's 
choice, whatever the case may be; and if they don't like them, 
then they don't have to have them. But if they do like them, I 
believe that they should be allowed to have them. And it also 
comes down to just access. That is all it is. And we are going 
to see examples up here and we are going to see pictures up 
here, and you are going to see a lot of development around an 
airport, but the bottom line is that development can take place 
regardless. If somebody owns a piece of property, and it 
doesn't matter if it is a Driggs or independent, if somebody 
owns a piece of property adjacent to an airport, they can 
develop it. And if the airport needs to expand, what they will 
probably do is condemn that property or do whatever it takes to 
expand it. They have that option. But, regardless, all this is 
allowing is access for that individual.
    And as far as pets on an airport and vehicles on an 
airport, those are still unauthorized. If it is an unauthorized 
vehicle, and I know we are getting into specifics here, and I 
didn't necessarily want to do that, but if it is an 
unauthorized vehicle on an airport, then it is unauthorized. 
That is just all there is to it. And I think we can put these 
agreements together in such a way that it benefits everybody.
    But, Mr. Chairman, I really appreciate the fact that you 
decided to have this hearing, and I know we talked about it on 
the floor, but thank you very much, and thank you to Ranking 
Member Mica for also agreeing to it.
    Mr. Oberstar. Thank you, Mr. Graves. Certainly those issues 
you raised will be explored during the course of this hearing.
    Now, Mr. Schrader, also an advocate for through-the-fence 
agreements, we look forward to your testimony.

 STATEMENT OF THE HONORABLE KURT SCHRADER, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Schrader. Thank you, Mr. Chairman.
    Mr. Chairman and Members of the Committee, I appreciate the 
opportunity you are giving me today to speak with you about the 
residential through-the-fence agreements at our federally 
supported airports.
    As a licensed general aviation pilot, I have been familiar 
with this issue for some time. While I was in the State 
legislature in Oregon, I had the privilege of working on this 
issue with Oregon State Senator Betsy Johnson, who continues to 
be a leading advocate for aviation in our great State. It is a 
privilege to come before you today as a Member of Congress to 
represent the interests of my constituents living at 
Independence Airpark.
    In a few moments, you are going to hear from Mitch Swecker, 
the Oregon State Airports Manager, and he can tell you about 
the success Oregon has actually had with residential-commercial 
through-the-fence agreements at our State airports that receive 
FAA grants. I know he will be a valuable resource to you today, 
and I thank him for coming.
    For my constituents who make their homes at Independence 
Airpark, I am proud to be before you to attest to their 
commitment to keep Independence Airport a highly functional and 
important part of National Plan of Integrated Airport Systems.
    Since 1976 the Independence Airport has been the heart of 
this community. Each resident has chosen to live there and is 
invested in their community's future. The 213 houses in 
Independence Airpark I think serve as a model for how 
residential through-the-fence agreements can and should work. 
In Oregon we have done through-the-fence the right way, and I 
am glad the FAA has proposed a new rule that will allow Oregon 
and Independence Airpark to continue operating under their 
existing residential through-the-fence agreements while we here 
in Congress figure out the long-term success.
    Mr. Chairman, as the Congressman for the Independence 
Airpark and a strong supporter of Mr. Graves, Mr. Boswell's, 
Mr. Ehlers' and Mr. Petri's Community Airport Access and 
Protection Act of 2010, I am grateful to you for holding this 
hearing to explore the issues of through-the-fence agreements, 
hopefully granting further FAA assurances in the future. I look 
forward to continuing to work with you and my colleagues who 
sit on this Committee to develop a fair and very sound policy 
on residential and commercial through-the-fence agreements.
    Thank you, Mr. Chairman.
    Mr. Oberstar. Well, thank you for your testimony. You have 
had an opportunity, I gather, to review the current September 
revisions by the FAA of their original policy. I would like to 
get your thoughts about it. I think the cornerstone is making 
changes for the future, leaving existing agreements in place, 
but strengthening compliance with grant agreements, FAA-AIP 
grant agreements.
    Mr. Schrader. Mr. Chairman and Members of the Committee, I 
appreciate the direction the FAA is going. Certainly the 
existing agreements I think need to be honored, and there is a 
lot of good lessons to be learned from the airparks like 
Independence that do it right. And I think everyone in any 
airparks all over the issues of safety, I think that goes 
without saying. But I would hope there would still be an 
opportunity for new through-the-fence agreements. I have 
actually two airports out of the 75, apparently, nationwide 
that are in my district. They both are major airports for the 
communities. One, actually a little further north than 
Independence, actually serves as a potential hub or outlier 
airport for our greater Portland community.
    So having this sort of agreement and understanding promotes 
the jobs in these areas. A lot of our communities are severely 
hard hit right now. This would be just one more blow to our 
economy and to the ability for honest Americans that made a 
decision to live near an airpark to exercise their free will.
    Mr. Oberstar. Thank you.
    Other Members have questions?
    [No response.]
    Mr. Oberstar. If not, thank you for your testimony.
    Mr. Schrader. Thank you.
    Mr. Oberstar. We will now hear from Kate Lang, who is the 
Director of Airports for the FAA; from Ms. Carol Comer, 
Aviation Programs Manager for the Georgia Department of 
Transportation; Mr. Mitch Swecker, Airports Manager for the 
State of Oregon Department of Aviation; Ms. Ann Crook, Airport 
Manager, Elmira Regional Airport.
    Been passed Elmira many times over the years. My late wife 
was from Rochester, New York. We used to drive up that way from 
here to Rochester.
    Jim Coyne, a former colleague who spends more time 
answering quorum calls and votes up here, and not actually 
voting, than probably when he was a Member; and Dr. Brent Blue, 
Founder of Throughthefence.org.
    Ms. Lang, we will begin with you. Thank you very much for 
being with us this morning. But again let me repeat my 
compliments for the service you have rendered as Director of 
Airports, the splendid job you have done particularly through 
the period of the stimulus, moving those airport grants out 
very quickly. We have 98 percent of FAA stimulus funding under 
contract, actually onsite work carried on.
    My recollection is that the airport grants under stimulus 
affects some 2.5 million operations a year at airports that 
have used those grant funds, and they have been put into effect 
very quickly, projects completed. In fact, there is one airport 
that invited me to a groundbreaking ceremony, and by the time I 
got there a few weeks later, there was a ribbon cutting; they 
had already completed the project. That is good news. People 
working jobs and permanent benefits left for the Country.
    I know that didn't happen by accident; it happened because 
you had a portfolio of projects that had been vetted, that had 
been cleared, that had gone through all the preliminary 
reviews, environmental review, design engineering, and ready to 
go to bids. And in many cases bids had already been taken even 
before we passed this stimulus, because airports can hold those 
bids for quite a period of time, unlike the highway program.
    So, with that, please begin.

TESTIMONY OF CATHERINE M. LANG, ACTING ASSOCIATE ADMINISTRATOR, 
 OFFICE OF AIRPORTS, FEDERAL AVIATION ADMINISTRATION; CAROL L. 
    COMER, AVIATION PROGRAMS MANAGER, GEORGIA DEPARTMENT OF 
 TRANSPORTATION; MITCH SWECKER, STATE AIRPORTS MANAGER, OREGON 
 DEPARTMENT OF AVIATION; ANN B. CROOK, AIRPORT MANAGER, ELMIRA 
 CORNING REGIONAL AIRPORT; JAMES K. COYNE, PRESIDENT, NATIONAL 
AIR TRANSPORTATION ASSOCIATION; AND BRENT BLUE, MD, FOUNDER OF 
                      THROUGHTHEFENCE.ORG

    Ms. Lang. Thank you. And I will pass your kind words on to 
the airports team.
    Chairman Oberstar and other Members of the Committee, good 
morning and thank you for inviting me here today to discuss the 
FAA'S proposed policy regarding access to airports from 
residential property.
    In order to frame this discussion properly, let me explain 
what a public use airport is and how it differs from an 
airpark. There are approximately 21,000 airports and landing 
strips in the United States. Out of these, only 3,332 have been 
selected for inclusion in the National Plan of Integrated 
Airport Systems, or the NPIAS. These are public use airports 
that must be open to all aeronautic users, must be sufficiently 
expandable and adaptable so as to accommodate new aircraft and 
future demand, and must develop in a way that meets FAA safety 
standards. It is these airports that are eligible for Airport 
Improvement Program, or AIP, grants.
    Conversely, private airparks are financed and maintained by 
the aviation community that uses them, and they are free to set 
their own standards for use, access, and safety.
    It is also necessary to consider the longstanding principle 
that with the expenditure of any Federal grant funds certain 
conditions attach. In keeping with this principle, every time 
we make a Federal investment at a NPIAS airport, the sponsor 
agrees to 39 Federal assurances, the vast majority of which are 
explicitly congressionally mandated. These are assurances 
designed to protect the public aeronautical characteristics of 
the airport, to encourage good airport management, and to 
impose conditions to protect the public purpose for which the 
investment of taxpayer dollars was made. These principles and 
assurances have, for 60 years, protected and expanded the most 
robust system of airports in the world.
    Over the past decade, the FAA has responded to several on-
airport residents and residential through-the-fence proposals 
from NPIAS airport sponsors and developers. Our view, both then 
and now, was that residential development does not meet the 
statutory requirement for compatible land use. Over time, 
inconsistent approaches to residential through-the-fence 
agreements have developed, and we recognized that a more 
comprehensive approach was warranted.
    After our initial attempt last year to clarify our 
residential through-the-fence policy, we ultimately assembled a 
policy team to review the gaps in our approach. The team met 
with a wide variety of interested parties, visited five 
airports with residential through-the-fence access, and 
reviewed countless documents and comments received on our 
previous guidance materials.
    At several of the sites we visited and studied, the 
fundamental distinctions between public use, public purpose 
airports and private airports have begun to blur. While private 
airparks serve an important and cherished purpose for members 
of the aviation community, AIP funds must be used strategically 
and responsibly at NPIAS airports that serve public purposes 
and retain the characteristics expected from public use, public 
purpose airports.
    The agency's statutory charge to invest in a national 
system of airports for the long-term, coupled with the fact 
that residential through-the-fence arrangements can compromise 
the ability of the airports to serve the public purpose 
expected of tax-funded airports, led us to the policy we are 
proposing. The policy is twofold. We propose both minimum 
requirements that airports with existing residential through-
the-fence access must meet and proposed prohibit sponsors from 
entering into new arrangements. Among other things, airports 
with existing access would be required to develop access plans 
to address general authority for control of airport land, the 
safety of airport operation, cost recovery, air space 
protection, and compatible land use. While these arrangements 
continue to be undesirable, we believe that this will address 
our most serious concerns, while offering a common sense and 
fair solution for the communities involved.
    This proposed policy is currently out for public comment, 
and the comment period will remain open until October 25th of 
this year. We have worked extremely hard to arrive at a policy 
that addresses the concerns and needs of State and local 
governments and of the general aviation community, while 
fulfilling our obligation to protect the role that NPIAS 
airports play in the national system.
    I believe our staff has given full and fair consideration 
to all the ideas and feedback we have received up to this point 
in the process, and I assure you that we will continue to be 
open-minded as we review the public comments on our draft 
policy.
    As stewards of the Federal tax dollars, the FAA takes 
seriously our responsibility to make wise investments with AIP 
grant funds. I believe our proposed policy regarding access to 
airports from residential property reflects the long view this 
Committee explicitly expects us to take when we invest $3.5 
billion of taxpayer money in our airport systems annually.
    Mr. Chairman, Members of the Committee, this concludes my 
prepared remarks. I would be happy to answer any questions you 
might have.
    Mr. Oberstar. Thank you, Ms. Lang. I am going to have to 
leave; I have another Committee responsibility in a different 
mode of transportation, I have to go talk to a transit group, 
and Mr. Boswell will take the Chair during that time. But I 
just wanted to ask you about the revisions in the FAA policy. I 
made note in 2007 FAA issued a determination that residential 
development adjacent to airport property is an incompatible 
land use. Is that still the guiding policy and principle?
    Ms. Lang. It is, sir.
    Mr. Oberstar. And the safety concerns, you have cited some 
issues and there is evidence in other statements about safety 
concerns. What are the principle safety concerns that you would 
cite that should be a part of the agreement, the AIP grant 
agreement between FAA and the owner of the airport?
    Ms. Lang. Well, for all NPIAS airports, we really work to 
drive Federal investments to meet FAA standards so a pilot 
flying into an airport has a uniform experience. What is 
happening at some of the through-the-fence airports, some of 
the ones where we have done the deeper review is, let's take an 
example of an airport that has a runway with a parallel 
taxiway. We have instances where through-the-fence operators on 
the other side of the airport just do a perpendicular taxiway 
right into the middle of the runway. Now, all over the country 
we spend Federal tax dollars to provide situations so we do not 
have pilots at federally obligated airports back-taxiing. Yet, 
to accommodate through-the-fence operations, we see incident 
after incident in which----
    Mr. Oberstar. Can't those be avoided by guidance and 
training? I mean, physically it is not necessary to do that; it 
may be a little more difficult to approach properly, but isn't 
that a manageable matter or not?
    Ms. Lang. What, back-taxying?
    Mr. Oberstar. Yes.
    Ms. Lang. Well, you know, at an untowered airport, I mean, 
you would hope----
    Mr. Oberstar. They just do it, you are saying.
    Ms. Lang. Right. I mean, the fact of the matter is that we 
have major initiatives, particularly in western parts of the 
United States, to eradicate the instances where we have runways 
without parallel taxiways to eliminate what we find to be an 
unsafe condition. We intentionally invested in this particular 
airport to provide that parallel taxiway to achieve that safety 
outcome, only to have it compromised by the airport giving up 
the rights and power by allowing through-the-fence access that 
undermined the Federal investment to achieve the higher safety 
standard. We actively use Federal money at public airports to 
specifically avoid those situations.
    Mr. Oberstar. There is another issue of expansion. If there 
is a need for expansion and the airport owner is allowed 
residential development so close, to expand, you have to 
acquire that property. Shouldn't there be agreements, shouldn't 
there be covenants in the grant award that the airport owner 
will take care not to allow encroachment?
    Ms. Lang. Mr. Chairman, this Committee has, over the years, 
given very good guidance to the FAA on how to think about the 
development of airports receiving Federal funds. On the one 
hand, we give airports the infrastructure and the land they 
need to operate the airport. But Congress has also urged us, 
and we have done it vigorously, to provide money to develop 
compatible land use planning around an airport to make sort of 
a buffer zone there. Throughout the last several decades, homes 
have been found to be a non-compatible use. Building a home is 
one of the most difficult arrangements to make. If someone does 
an on-airport hangar, they generally will understand that the 
hangar will extinguish at the end of that and the airport 
should retain the right to do that. But with homes, people buy 
homes and take mortgages thinking that those will continue in 
perpetuity. Homes, versus other arrangements, are considered 
not to be extinguished.
    Mr. Oberstar. One of the biggest issues we have is airport 
noise, and I insisted, I think it back in 1990, that we have 
language, that the FAA include language directing counties or 
cities or those who have public ownership of land around 
airports to have a provision in the mortgage agreement that the 
buyer of the home or builder of the home acknowledge that they 
are living within the DNL and that they understand there is 
going to be airport noise, so that they can't come later and 
complain that there is airport noise. That is not acceptable to 
me; I just have no patience with people who buy a home in the 
vicinity of an airport and then complain there is airport 
noise. If you can't see that it is an airport and there are 
airports coming in, then goodness knows you don't belong there, 
you belong someplace else. I mean, I really truly have little 
patience for that.
    But then in subsequent testimony from Ms. Crook I though it 
was very interesting, even airport residential through-the-
fence agreement complain about a jet aircraft coming in. It is 
OK for their own airplane, but they don't want a small jet 
coming in the airport. You can't have it both ways.
    Well, we will have to pursue that. I would love to be able 
to pursue this further, but I will have to ask Mr. Boswell to 
take the Chair, and I will return as soon as I can.
    We will continue with Ms. Comer.
    Ms. Comer. Chairman Oberstar, Members of the Committee, we 
are pleased to report that not one of Georgia's 91 publicly 
owned and federally obligated airports has residential through-
the-fence access. The majority of these issues have been 
successfully resolved by educating our airport sponsors. We 
advise them that these agreements are inconsistent with their 
obligation to ensure compatible land use adjacent to the 
airport. We review their grant assurances and discuss the 
inherent safety, security, and liability issues that are 
associated with these proposals. Lastly, we inform the airport 
sponsor of the undesirable consequences of noncompliance with 
their Federal grant assurances: they risk not receiving future 
Federal funds.
    The remaining proposals we review, simply put, take on a 
life of their own. They tend to be as unique as the airport and 
their proponent, and contain elements that may adversely impact 
the safe operation of the airport. Rarely do they contain 
provisions that are truly in the best interest of the airport, 
and they consume the valuable personnel and financial resources 
of all involved.
    One such proposal presented to us in 2006 still remains 
unresolved today. The original proposal contained a substantial 
residential component along with a long water feature which 
would provide a habitat for birds and wildlife, potentially 
posing a safety hazard to aircraft operations. This particular 
proposal is further complicated by the sponsor's lack of 
jurisdiction for zoning around the airport and ongoing 
litigation between the sponsor and the proponent. More than 30 
meetings have taken place in the last five years over this 
issue, but we are very close to resolving it.
    As this example illustrates, these issues have a high 
degree of complexity, are contentious, are usually protracted 
over a number of years, and can result in significant expense 
to the airport sponsor and the proponent.
    In working with our airport sponsors to resolve the more 
difficult proposals, we have long criticized FAA for its lack 
of a clear and enforceable policy on this issue. The word 
``discourage'' does very little to dissuade local government 
officials with very little experience in airport operations or 
a true understanding of their Federal grant obligations.
    In 2008, the FAA selected the State of Georgia to become 
the 10th Block Grant Program State. When we executed the 
Memorandum of Agreement with FAA, they did not give us an 
option to enforce only those policies and rules and regulations 
that we liked or agreed with. Resolving through-the-fence 
issues are one of the most difficult parts of administering the 
Block Grant Program.
    During the past 12 years, Georgia has invested more than 
$50 million in our own State funds to extend runways at 37 
airports statewide in support of regional economic development 
opportunities. This will keep Georgia's citizens and its 
business and industry connected to the global economy. It is 
imperative that we provision for and protect the future 
development of our airports so they will continue to serve for 
the public benefit in our State and national airport system.
    After reviewing comments from residential through-the-fence 
proponents, I am compelled to offer a personal perspective to 
answer their question ``Who are these people who are telling us 
and our local airports we can't do this?''
    For more than 25 years I have held an FAA pilot's license 
with a multi-engine and instrument rating, and a flight 
instructor's certificate. I have owned four airplanes, am an 
avid general aviation pilot, logging more than 3,000 flying 
hours, and I have lived for eight years in a privately owned, 
private use residential flying community. I assure the 
Committee I understand the desires of a pilot who wishes to 
live in this environment. However, my personal enjoyment of 
this lifestyle should not be associated with a publicly funded 
airport. In Georgia, more than 35 privately owned, private use 
residential airparks exist specifically for this purpose.
    We respectfully urge the Congress to support FAA'S update 
to its residential through-the-fence policy and amendment to 
its grant assurances in order to minimize safety risk, protect 
the future development of our publicly owned airports, and 
maintain the integrity of the Federal, State, and local dollars 
invested in these facilities. This would support the past and 
future efforts of our staff and FAA as we work to ensure the 
safest possible operating environment on our airports and 
compliance with all Federal policies and regulations.
    Thank you for the opportunity to share Georgia's 
experiences and challenges with residential through-the-fence 
agreements. This will conclude my formal remarks and I would be 
happy to answer any questions you may have.
    Mr. Boswell. [Presiding] Thank you very much.
    We will move on now to Mr. Swecker. Thank you very much. 
You are now recognized.
    Mr. Swecker. Mr. Chairman and Members of the Committee, 
thank you for the opportunity to appear before the Committee 
today. I am currently the State Airports Manager for the Oregon 
Department of Aviation, and the Department is overseen by a 
seven member board of directors appointed by the governor, and 
I am here at their behest.
    The Department's mission is to support Oregon communities 
by preserving and enhancing aviation safety, infrastructure, 
and development, and part of my charter is to be the manager 
for 28 of those public use airports that are State owned. 
Oregon is a mostly rural State, and those general aviation 
airports provide essential services, such as transportation, 
medevac, airborne firefighting, as well as aviation related 
recreation.
    I am here today in support of residential and commercial 
through-the-fence and H.R. 4815, the Community Airport Access 
and Protection Act of 2010. On behalf of the Oregon flying 
community, I thank Representatives Graves, Boswell, Ehlers, and 
Petri as sponsors of that bill. Additionally, I would like to 
thank the cosponsors, including Representative Schrader of 
Oregon.
    On a larger scale, residential through-the-fence is almost 
entirely a general aviation issue, and general aviation 
contributes $1.8 billion annually to the Oregon economy, 
according to data provided by the Alliance for Aviation Across 
America. It also directly and indirectly is responsible for 
close to 197,000 jobs in Oregon. The largest kit built aircraft 
company in the world, Van's aircraft, is located at one of our 
airports, and there are numerous aviation manufacturers located 
at airports around the State.
    Keeping general aviation and the industries that support it 
alive has to be part of any economic recovery, and it seems 
contradictory to discourage one of the strongest supporters and 
customers of the aviation industry. Residential airpark tenants 
are that aviation community that loves flying so much that they 
are willing to live close to an airport, despite the noise, 
that they literally live what the previous Oregon Department of 
Aviation Director used to call the Wright Brothers spirit. They 
are the most ardent of aviation supporters and have enhanced 
the value of the community through the tax base and through 
their civic contributions. They are consumers of aviation 
products that essential to keeping general aviation industries 
viable across the United States.
    In Oregon we have seen firsthand that residential through-
the-fence is not, contrary to FAA draft policies, inherently 
wrong. The State of Oregon believes that when done wisely it 
can be a tremendous asset to an airport. Independence 
Residential Airpark has over 200 homes laid out in a model 
development that clearly demonstrates residential airparks can 
be done safely, help to make the airport economically self-
sustainable, and probably are more secure than most airports 
that don't have homes with access to the airport.
    The State of Oregon is not looking to combat the FAA. It is 
a great organization that does a remarkable job and we have a 
good working relationship with it. Yet, occasionally we have a 
professional difference of philosophy on how best to enhance 
and promote aviation in Oregon. We have worked well with the 
FAA and even invited Randall Fiertz, the FAA'S Director of 
Compliance and Field Operations, to our State to see firsthand 
how a successful residential TTF airport could look.
    As background, in September 2009, the FAA changed the 
5190.6A from 1989 that, by the FAA'S own admission, did not 
address residential through-the-fence in a meaningful way. The 
clarifications in the new manual are a significant departure 
from the past practices on the part of the FAA. The verbiage in 
the new manual radically changes the approach to residential 
through-the-fence, making it absolutely unacceptable under any 
circumstances, and we appreciate that they have agreed to 
modify that just a little bit.
    The homeowners at Independence have invested significantly 
in their community. They have lived in safety and harmony since 
1976, when the first airpark homes were developed and sold. And 
up until the late 2000's they were also in harmony with the 
FAA, having been through multiple FAA grant assurance 
inspections over the years without issue related to through-
the-fence.
    Both the State of Oregon and the homeowners appreciate 
concessions offered by the FAA; however, the newest proposed 
revision verifies that the FAA'S mind-set has remained the 
same, that residential through-the-fence is not good for 
airports, and it also calls into question the commitment and 
promises made to the Oregon Department of Aviation.
    Mr. Chairman, I would like to conclude my remarks by 
respectfully requesting the following: approve and pass H.R. 
4815; encourage the FAA to work with the States on a policy 
that fits each State's situation vice using a one size fits all 
approach; and recognize the economic, safety, security, and 
community value of TTF, through-the-fence, both commercial and 
residential, and that they are not inherently wrong in and of 
themselves.
    Mr. Chairman, I thank you again for the opportunity to 
appear before your Committee.
    Mr. Boswell. Thank you for your testimony.
    We move on now to Ms. Crook, Airport Manager, Elmira 
Corning Regional Airport. Welcome.
    Ms. Crook. Good morning. Thank you, Mr. Chairman, Members 
of the Committee. I am the Manager, as you mentioned, of the 
Elmira Corning Regional Airport, but am also the past Director 
of the Oregon Department of Aviation. I am an accredited 
airport executive, so my comments today are based on over 20 
years of managing public use airports, many of them with 
through-the-fence agreements.
    In my opinion, what we are here talking about today is not 
residential airparks. What we are talking about is the 
appropriate way to allocate the scarce airport improvement 
program funding and how to prioritize that to the essential 
components of the public use airport system.
    First I want to talk, again from my experience, about a 
comment we have heard several times already this morning about 
residential airpark homeowners being good neighbors and 
proponents of aviation. I absolutely believe in that. We have 
heard some very good comments already about how these people 
are drivers of general aviation, supporters of general 
aviation, and proponents of that element of the industry.
    However, I have received noise complaints from residents of 
a residential home park with through-the-fence agreement who 
are absolutely trying to protect their investment and their 
homes and their way of life, but when there have been different 
kinds of aircraft operations that are appropriate at a public 
use airport weren't consistent with their way of life, and this 
was, for example, helicopter noise; other aircraft, transient 
aircraft, aircraft not based at the airport operating after 
their normal hours, at night, maybe; and also when we have, at 
a particular airport, had discussions with businesses in the 
community about the possibility of developing the airport so 
that it could accommodate light jets to accommodate corporate 
flight activity, the residents of the airpark were extremely 
opposed to any development of the airport that would make it 
accessible to jet type of traffic.
    So while I do believe that they are supportive of their 
residential use of the airport, I haven't found them to be 
supportive of the airport and its public use in general.
    Another factor that I have seen is, again, as Ms. Lang 
mentioned, the fact that homeowners tie to their home, their 
major investment, their asset in their life is different than 
the business relationship that pilots will have on their hangar 
or a commercial hangar that is on an airport. Again, the 
expected value of a home continues forever, it is not just for 
the life of an agreement or for your expected use of your 
hangar. It is expected that your home is an asset that becomes 
part of your estate, that you can convert to your heirs or sell 
with a value that is not only consistent, but is expected to 
grow. I mean, everyone is expecting to gain equity in their 
home over time, and a major portion of the value of that home 
is the access to the airport.
    That becomes an issue when, again, sometime in the future, 
the airport may need to do some development to accommodate 
public use. If that development eliminates that opportunity for 
the access, then we are not just talking about moving a 
taxiway; what we are talking about is reducing the value of 
this home that, if that home no longer has access, then it 
becomes a residential development next to the airport that can 
be a real incompatible land use, that can cause noise problems 
and other problems for the airport in the future. And that is 
where I think putting our public funding, our scarce AIP 
funding into that is a mistake.
    I do want to say that the FAA'S proposal that came out a 
couple of weeks ago is a very, very good compromise. It allows 
for places that already exist, like the Independence State 
Airport in Oregon, to demonstrate that they can meet the 
requirements to make sure that the airport operates safely and 
securely, maximizes future investments, but doesn't allow 
future type of developments that might create problems for the 
FAA and for the community in the future.
    I also wanted to stress that this proposal does not attempt 
to prohibit residential airparks. It doesn't at all. What it 
does is say that it is inappropriate to invest Federal funds in 
airports that have those, and that is a very important 
distinction.
    That is the end of my comments, but I am available for any 
questions. Thank you very much.
    Mr. Boswell. Well, thank you. Appreciate your comments.
    We would now like to recognize Mr. James Coyne, President 
of the National Air Transportation Association. Welcome.
    Mr. Coyne. Thank you very much, Congressman Boswell and 
other Members of the Committee. I am Jim Coyne, the President 
of the National Air Transportation Association. We are 
sometimes called the voice of aviation business; we represent 
about 2,000 aviation businesses across the Country, companies 
that provide fuel, services, repairs, and so forth, at both 
private aviation locations and at regular airports across the 
Country, public use airports.
    The FAA, of course, has issued a proposed policy related to 
residential through-the-fence agreements at federally funded 
airports. This policy would subject existing through-the-fence 
agreements to closer oversight and scrutiny, and prohibit 
federally obligated airports from entering into any new 
through-the-fence agreements.
    NATA supports the FAA'S proposed policy and believes it is 
in the long-run interest of the air transportation system to 
adopt such a policy. The Association believes the FAA proposal 
comports with existing Federal grant assurance requirements and 
applicable case law with regard to prohibiting new through-the-
fence agreements, while providing a reasonable accommodation 
for existing agreements to continue. In short, we feel that 
this is a compromise, a compromise that meets the objectives of 
just about everybody involved.
    Congress has recognized the value of maintaining and 
developing a network of airports across the Nation through the 
establishment of the AIP program. This program provides Federal 
funds for the maintenance and development of airports that are 
deemed important to the national air space system. This 
investment of taxpayer dollars in airport development is 
protected by, as we have heard, Federal grant assurances. These 
assurances require airport owners to operate the airport in a 
manner that best serves the interest of the entire 
transportation system, not just one or two local residents. 
Without these assurances, the Federal investment in airport 
infrastructure would be subject to the whim and preference of 
local politics and local consideration.
    Of course, this body has, for the last 50 years, worked so 
hard to develop a national air transportation system, and that 
is why I think it is so important for us to emphasize that the 
issue before the Committee today is what step most protects a 
national system. I think somebody, it may have been Phil Boyer, 
once said, it is the system, stupid. And keeping this system 
viable depends upon us creating rules at the FAA at the 
national level that support these public airports.
    As a legal document, the through-the-fence agreements 
convert access and other rights, depending upon the specific 
language in the agreement, to individuals owning residential 
property near the airport. These access rights at their core do 
not necessarily conflict with the idea of maintaining airport 
utility public interest. Conflicts can, however, occur when the 
transportation needs of the surrounding communities and region 
dictate a change in airport environment and, as we have heard, 
nobody in this room can predict the changes that we are going 
to need to make to our aviation system in the future, and it is 
wrong to handicap our ability to adapt to those future changes 
at this time through unwise legal agreements with homeowners 
around airports.
    NATA member companies have invested billions of dollars in 
creating on-airport service facilities that cater to the needs 
of the flying public. This investment, much like the Federal 
investment, is protected by the Federal grant assurances from 
unreasonable or unjust loss. Businesses, the majority of which 
are small businesses, across the Nation have created service 
facilities, jobs and economic activity based upon the idea that 
public use airports are maintained and operated for the benefit 
of the transportation needs of the whole region and the Nation. 
These on-airport businesses are subject to tight oversight from 
the airport sponsor to ensure that their activities are aligned 
with the needs of the airport and the public. These businesses 
accept the fact that the needs of the airport as a public use 
facility supersede the plans of the individual business owners. 
This is acceptable because the needs of the commercial 
operation usually align with the growth and development of the 
community and the region. Activities such as the creation of 
residential through-the-fence agreements, which reduce the 
future utility of airports, can devastate the investment in on-
airport facilities made by these businesses.
    In closing, let me say that NATA understands the position 
of residential through-the-fence proponents. General aviation 
is an industry that was born in the United States and has grown 
from the ground up. It is successful because of the passion and 
devotion of countless aviation enthusiasts and entrepreneurs. 
It is these same individuals who, because of their passion, 
desire to reside near the local airport and operate the 
aircraft directly from their homes.
    Nothing in the Federal grant assurances or other Federal 
law prevents residential through-the-fence operations from 
occurring at the many private airports around the Country. 
However, allowing private rights of access via residential 
through-the-fence agreements from residential properties 
adjacent to federally funded airports threatens the investment 
of public funds made in those airports. The vision of public 
airports must extend beyond the current use of the airport and 
account for the various possible future needs of the Nation and 
the traveling public.
    NATA believes that the FAA has proposed a policy that well 
serves the long-term interest of airports, airport businesses, 
and the public. Any attempt to override that policy by statute 
would result in unintended consequences that damage the future 
utility of public use airports and could call into question the 
future of all grant assurances and the FAA'S ability to ensure 
that those obligations are followed by all airports receiving 
Federal funding.
    Thank you very much and I look forward to your questions.
    Mr. Boswell. Thank you.
    I would like to recognize now Dr. Brent Blue, Founder of 
the through-the-fence organization. Dr. Blue.
    Dr. Blue. Thank you very much, Members of the Committee. It 
is a pleasure to be here. My name is Brent Blue. I am a family 
physician from Jackson, Wyoming. I am the Founder of 
throughthefence.org, which is a site for dissemination of 
information about residential through-the-fence activities and 
the FAA'S attempt to change them.
    I am, for what it is worth, the Democratic candidate for 
coroner in Teatime County, Wyoming. Like the coroner's 
position, this issue should not be partisan, and I don't know 
how it has gotten to be partisan. It is not a Republican or 
Democratic issue, but an issue of whether a local airport 
should have the right to determine who its best neighbors are 
and which ones will benefit that airport the most.
    General aviation has been hit hard by the recession, and 
was having hard times even before due to increasing fuel prices 
and other factors. We need to do everything we can to support 
general aviation.
    Residential through-the-fence access is an income source 
for airports and helps the viability of noncommercial general 
aviation airports, and the viability of these airports is 
important to the economy of the Country. Demonstrated by the 
adverse effects of commerce during the shutdown after 9/11, the 
lack of business aviation had significant adverse impacts on 
many industries during the three weeks of restricted general 
aviation activity.
    Examples of viable airports and the positive economic 
effects of residential through-the-fence access can be seen at 
many places like Batavia, Ohio, where Phil Boyer, by the way, 
lives; Independence, Oregon; Driggs, Idaho; and Erie, Colorado. 
In Driggs, half the airports' board airports budget is paid for 
by through-the-fence activity, and that number is expected to 
be 60 percent for Erie, Colorado.
    Residential through-the-fence activity also provides the 
eyes on the field, especially at night, when most small 
airports are vacant, helping increasing security. This is an 
extension of the AOPA's Airport Watch Program, which has been 
endorsed by the TSA and the FAA. A classic example of this was 
in a March drug bust in Colorado, where a residential through-
the-fence homeowner noticed suspicious activity during the 
night and called the police.
    The FAA cites issue after issue to discourage through-the-
fence access, but most of these issues are unsupported by any 
hard data and are significantly influenced by the personal bias 
of FAA personnel. One bias is the sense that residential 
through-the-fence owners receive an unfair economic benefit 
from Federal improvements at adjacent airports. This is like 
saying that somebody who lives near a bus shelter that has an 
improvement done with Federal monies is benefitting. The same 
could go for highway interchanges, open water projects, or home 
near bike paths.
    The FAA wants to guard against titled easements to restrict 
residential through-the-fence properties because their mission 
is to guard the Federal investment. Aside from the fact titled 
easements are not a requirement for residential through-the-
fence access, these easements do guaranty income for the 
airport and is a positive for the government investment by 
making the long-term viability more secure.
    The FAA has said it will be more difficult to move 
residential through-the-fence owners over other land uses 
around the airport, if indeed that needs to be done in the 
future. But the FAA has not considered a much more difficult 
move: moving cemeteries, which are common ``compatible'' 
airport neighbors. Moving a cemetery is more controversial than 
moving anybody's home, and cemeteries are forever.
    The bottom line is I am concerned about the future of 
general aviation. I am not sure the FAA'S Airport Compliance 
Office has the same concerns. Ms. Lang, in her written 
testimony, characterizes residential through-the-fence 
homeowners' input at a public airport board meeting as 
``influence'' and is an inappropriate process. Public comment 
at an airport board meeting inappropriate process. I believe 
the FAA is an American institution.
    This attempt to codify the ban on residential through-the-
fence access is Federal bureaucracy gone bad and should be 
stopped.
    Thank you very much for your time and I would appreciate 
any questions.
    Mr. Boswell. Thank you.
    I wasn't here for the opening remarks; I was actually 
reviving and I did see some of the things that were said as I 
was coming passed the monitor.
    First off, this is a hearing. We are not going to take any 
votes today, so you know that, and we are here to gather 
information. But I guess I could confess to some bias that I 
would have on the issue. I personally think, and I will say 
some more in a minute, after I recognize Mr. Graves and go 
through the order here of questions, that, you know, absolutely 
I concur with Mr. Oberstar and, before him, Mr. Young. Safety. 
Safety is an absolute must. There is no argument.
    But, you know, I think that pilots do understand that they 
must follow and comply with instructions, whether it is 
entering a taxiway or a runway or whatever, and it would seem 
possible and reasonable to me that through education, signage, 
and firm regulation, that this could and, I might add, should 
be worked out in a safe and respectable manner, and we can 
continue to have the incentives and the economic impact and the 
safety for the through-the-fence operations.
    You might have thought I felt that way before I took this 
chair, but I think there is room, Jim, for the FBOs to do 
their, you know. You know, I think folks like you and me could 
sit down and work this out. I really believe that.
    So, having said that, I recognize Mr. Graves, and we will 
go through the order. Mr. Graves.
    Mr. Graves. Mr. Young has to leave, so----
    Mr. Boswell. Excuse me. I just got corrected.
    Mr. Young, sir.
    Mr. Young. I thank you, Mr. Chairman. I, at this time, 
would like to yield my five minutes to Mr. Graves, if I may. 
And I do yield back the balance of my time. I yield to Mr. 
Graves.
    Mr. Boswell. Mr. Graves.
    Mr. Graves. Thank you. Again, thank you, Mr. Chairman. It 
is unfortunate that we have this hearing today on a day we 
don't have votes, because we don't have very many Members here, 
obviously, on this very important issue.
    I have a lot of questions to go through and I will start 
with Ms. Comer. You stated in your testimony that the State of 
Georgia has no residential through-the-fence agreements at any 
of your public airports.
    Ms. Comer. I made the distinction we do not have any 
residential through-the-fence agreements at our 91 publicly 
owned airports that are contained in the NPIAS that receive 
Federal funding.
    Mr. Graves. And that is what we are talking about today. Is 
there any Federal regulation that requires you to have a 
through-the-fence agreement?
    Ms. Comer. Would you restate your question?
    Mr. Graves. Is there any Federal regulation out there that 
requires you to have a through-the-fence agreement?
    Ms. Comer. That requires? No, sir, not that I am aware of.
    Mr. Graves. OK. So basically it is your decision. It is the 
State of Georgia's decision and you have decided that you don't 
want any through-the-fence agreements with any of the airports. 
And I am short on time, so yes or no.
    Ms. Comer. Ask the question one more time.
    Mr. Graves. So basically the State of Georgia has made the 
determination that you don't want any through-the-fence 
agreements. That has been your decision, correct?
    Ms. Comer. We are, as a State Block Grant program State, 
administering Federal funds for the FAA. We are required to 
ensure that our airports are in compliance with their Federal 
grant assurances in order to maintain their eligibility.
    Mr. Graves. And you have made that decision as the State of 
Georgia, then, not to have any through-the-fence agreements, 
which is interesting in the fact that you are a Block Grant 
State, so you really make the decision. But, regardless, you 
have made that decision that the State of Georgia chooses not 
to do through-the-fence agreements.
    Ms. Comer. Congressman Graves, I think something I will 
remind a comment that you made. The airport makes that decision 
of whether or not to enter in----
    Mr. Graves. But you use the term educate. You educate them 
to do that. All I am trying to get at is it is your decision, 
is that correct? I mean, it is their decision after you have 
educated them.
    Ms. Comer. It is not our decision, it is their decision. We 
offer the education to them of the potential.
    Mr. Graves. OK. So you are here testifying today that you 
believe that every State shouldn't be able to have through-the-
fence agreements, and you want the Federal Government just to 
say no, period.
    Ms. Comer. I am only testifying on behalf of Georgia's 
experience.
    Mr. Graves. Perfect. That is all I need to hear. You are 
here for Georgia.
    Ms. Crook, I will say the same thing to you. You know, at 
your airport you have decided that it is not going to be in the 
best interest to have a through-the-fence agreement, so you 
don't have any through-the-fence agreements, correct?
    Ms. Crook. Actually, we do have commercial through-the-
fence agreements.
    Mr. Graves. You have commercial through-the-fence 
agreements. I said residential, or I meant to say residential. 
You have three commercial through-the-fence agreements, isn't 
that right?
    Ms. Crook. That is correct.
    Mr. Graves. But you have decided not to have any 
residential through-the-fence agreements.
    Ms. Crook. That is correct.
    Mr. Graves. So essentially you are here testifying to say 
that everybody else shouldn't have them either.
    Ms. Crook. Actually, no. I am here to testify that 
residential through-the-fence agreements on public use airports 
should not be eligible for AIP funding.
    Mr. Graves. OK. That brings us to other issues.
    Then I am going to go to Mr. Coyne. I am real quick now. 
The National ATA, you basically oppose all residential and all 
commercial through-the-fence agreements.
    Mr. Coyne. What we propose and support is this compromise, 
which allows existing residential through-the-fence agreements 
to continue to operate, and we feel----
    Mr. Graves. But all new.
    Mr. Coyne. All new residential agreements I think should 
follow the rules of this proposal.
    Mr. Graves. How about business through-the-fence 
agreements?
    Mr. Coyne. Well, I think, as a general rule, business 
through-the-fence agreements don't have exactly the same 
issues, but they do have some concerns as well, and we don't 
have, at this point, a blanket rule about all business or 
commercial through-the-fence agreements, but we are very 
cautious about them because many of them, as you know, involve 
circumstances where they threaten the economic viability of the 
businesses at the airport and threaten the economic viability 
of the airport itself.
    Mr. Graves. OK, I am running out of time, Mr. Chairman, and 
I can come back, too, because I know other Members probably 
have other obligations to go to.
    Let's come back to this idea, and I keep hearing it from 
everybody, that it prevents the future development of the 
airport or the viability of the airport. Now, explain that to 
me. In fact, on these residential through-the-fence agreements 
it is private property, is it not? It is private property. And 
I am still talking to Mr. Coyne and then I will come back. It 
is private property. So you can't prevent that individual from 
building a house next to the airport.
    Mr. Coyne. Well, we truly believe that residential 
homebuilding near airports, especially important airports that 
are part of the NPIAS, is something that is not in the national 
interest. The more residential homes----
    Mr. Graves. Can you prevent somebody from building a house 
on a piece of property adjacent to an airport?
    Mr. Coyne. We would love to see ways in which the FAA could 
do that because there are many circumstances when it really is 
in the national interest and the interest of safety and others 
to do that. I think, in fact, the FAA does work very hard to 
prevent unnecessary residential construction around airports. 
To use the word prevent is a complicated term, but I think, 
frankly, we would like to see much less residential development 
around airports. And this is an important issue for what we are 
talking about here. If we leave aside the question of the 
taxiway to the individual's home adjoining the airport, I think 
most of the people involved in this debate would say, yes, we 
don't want more residential activity around airports, because 
residents around airports usually become the opponents of 
airports, and we have seen time and time and time again how 
vulnerable the important national air transportation system is 
to just a handful of two or three people who call all the time 
and say shut down the airport.
    Mr. Graves. It is still private property, is it not?
    Mr. Coyne. Of course it is private property. But private 
property----
    Mr. Graves. No, no, no, no. Where do you draw the line on 
where the Federal Government's jurisdiction should stop, how 
far away? Two miles? One mile? Where should the Federal 
Government quit telling people on private property----
    Mr. Coyne. I don't think the Federal Government is 
necessarily the organization that is going to lead the 
restrictions.
    Mr. Graves. That is what everybody here is advocating.
    Mr. Coyne. Well, no, we are certainly----
    Mr. Graves. Not everybody. I apologize.
    Mr. Coyne. I was saying the word lead. I think the local 
governments should become, first and foremost, the groups that 
oppose residential development around airports, and I strongly 
support local zoning, county zoning----
    Mr. Graves. And is that their decision now?
    Mr. Coyne. Most local communities are totally ignorant----
    Mr. Graves. Is it their decision? Is it the local 
community's decision now?
    Mr. Coyne. I think they are doing a very poor job of 
protecting the environments of airports from unnecessary----
    Mr. Graves. But is it their decision?
    Mr. Coyne. Well, I think some of them aren't even aware of 
it, whether it is their decision.
    Mr. Graves. Is it their decision?
    Mr. Coyne. I think in many cases they are an important part 
of the equation.
    Mr. Graves. Is it their decision?
    Mr. Coyne. It is not their unilateral decision, I don't 
think. I think the questions of zoning are shared by many 
people. The Federal Government has roles in zoning. To say that 
every local----
    Mr. Graves. Let me rephrase one more time. Who owns the 
airport?
    Mr. Coyne. The sponsor.
    Mr. Graves. Who is the sponsor?
    Mr. Coyne. Well, it varies from airport to airport. In some 
cases it is the New York Port Authority----
    Mr. Graves. County, city?
    Mr. Coyne. Sure.
    Mr. Graves. Community?
    Mr. Coyne. Yeah.
    Mr. Graves. Who makes the decision?
    Mr. Coyne. The decision about----
    Mr. Graves. The ultimate decision on whether or not there 
should be a through-the-fence agreement? Who makes that 
decision? Who makes that decision now?
    Mr. Coyne. That decision historically has been made by the 
individuals around the airport and the people who influence 
that airport. Sometimes it is made by very powerful political--
--
    Mr. Graves. But who makes it? Yes.
    Mr. Coyne. It is made by a political entity, sometimes 
which can be swayed by one or two powerful political forces.
    Mr. Graves. I will come back, Mr. Chairman.
    Mr. Boswell. OK. Thank you very much. That was interesting. 
We will probably have some more discussion in that area.
    I would like now to recognize the gentlelady from Texas, 
Ms. Johnson.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman. I 
am really seeking information, not trying to admonish anyone 
for their thoughts here.
    Ms. Lang, in your written testimony you described a 
situation where residents with through-the-fence access 
attempted to prevent an airport sponsor from preserving its 
rights and powers with respect to the airport property and 
development. Could you elaborate a little bit on that?
    Ms. Lang. Sure. Thank you for the question. There are a 
number of ways in which we have seen this happen. Again, we are 
talking about, really, nationwide, a very small percentage of 
federally obligated airports with this problem. But the 
problems are various. Like I said, in some cases an airport 
gave away a right to access that penetrated a runway, and that 
is a situation that we actually do try to avoid. In another 
case, a private developer built a parallel taxiway adjacent to 
the runway, which violated FAA separation standards between 
runways and taxiways for the kind of operation of the aircraft 
going into the airport. It was extremely difficult to get the 
proper separation done so we would have safe operation of the 
aircraft. That is a dilemma. In other cases we have had homes 
that have gone up.
    Bear in mind that in many of these cases the community and 
the airport operator did not consult with the FAA. We found out 
about these developments only after the fact, without 
consultation, in some cases. I will concede up front in other 
cases we were advised and said no; in other cases our field 
folks inappropriately gave the approval. But there are cases 
where they proceeded with development that did things, that put 
hangar homes in places on airports, literally on airport that 
eliminated the line of sight, that we then had to pay other 
investments to correct.
    Throughout all of these there has been a very casual 
relationship with the processes, and that is kind of a 
fundamental violation of the standard set by the United States 
Congress, that you have to go to the FAA to make changes on the 
airport. A lot of the problems we are seeing were developed by 
local communities, without consulting with the FAA as to 
whether or not the arrangements made for these through-the-
fence operations would in any way injure or harm the operation 
or movement of the airport or the safety of the airport. So it 
is kind of a mixed bag.
    Ms. Johnson of Texas. Thank you. Anybody can comment on 
this question. In the area where I live, which is Dallas, 
Texas, we have had much growth, and when the airports get ready 
for any kind of expansion, there are usually hearings and 
usually FAA has some rules or regulations on safety. That is my 
number one concern, is safety. Now, is this is a rural airport 
50 miles from a major urban area, it might make a difference. 
But if you are in a city, where it is already congested, it 
seems to me that there should be some type of rules to follow, 
because we have two major airports, and I know we are generally 
talking about the general airport, and we have that too, but we 
don't have that off-the-fence or whatever you call it, through-
the-fence agreement because it is very near a neighborhood, and 
the citizens object to having a lot of extra traffic because of 
safety.
    So I would like the people here to comment on whether or 
not you think location and whether or not the density around 
that airport makes a difference. I can see relenting a bit for 
very rural or very large spaced airports, but in large urban 
areas it could really present a real safety problem. So whoever 
would like to comment on that, I would like to hear.
    Ms. Crook. I will give you my perspective on that. One 
reason that I really enjoy managing airports, particularly in 
small communities, is because airports are economic drivers. 
The presence of an airport, many cases brings jobs, creates 
momentum, and drives economic growth in the area. And an 
airport lasts; it is a piece of infrastructure that lasts very 
a very long time.
    Ms. Johnson of Texas. I know the value of an airport. But I 
am talking about this type of arrangement.
    Ms. Crook. Yes. That is wonderful. My concern is that even 
an airport that seems like it is in a sleepy little rural area 
with not a lot happening that you could build a home with 
access to the airport and it would have very little impact, in 
the future, which could be 50 years in the future, that might 
now be now a bustling area that, all of a sudden, now that home 
with access is limiting the future development potential of the 
airport.
    Ms. Johnson of Texas. Yes. My time has expired, but you 
keep talking.
    Dr. Blue. Could I make a comment about that? There is a 
major difference between a residential through-the-fence access 
hangar home and another type of residence that is not aviation 
connected. In actuality, aviation-connected homes provide a 
buffer to other residents around airports, it provides space 
between those non-aviation-connected residences and airports. 
So there is a major difference there. And the FAA doesn't 
receive, at least from our FOIA request, does not have 
documented complaints of noise complaints from hangar home 
residents, nor have they ever, through another FOIA request, 
ever bought a hangar home because of noise considerations like 
they have non-aviation-connected residences. So by having 
aviation-connected residents around airports, that actually 
provides some buffering to the noise issue.
    Mr. Swecker. Mr. Blue actually made my point, but I would 
add that, as a manager of 28 airports, I don't get complaints 
from residential through-the-fence neighborhoods; I get 
complaints from non-residential across the State.
    Ms. Johnson of Texas. Thank you. I know my time has 
expired.
    Mr. Boswell. Thank you.
    The Chair recognizes the gentleman from Georgia, Mr. 
Westmoreland.
    Mr. Westmoreland. Thank you, Mr. Chairman.
    Ms. Comer, it is good to see you here, and I want to tell 
everybody that is here that may not know you, you do a great 
job for the State of Georgia and we appreciate all the help 
that you have given us. You mentioned one particular situation 
I think you and I both are very familiar with in the State of 
Georgia, but some of these through-the-fence agreements have 
been given by deed to some of these property owners. In some 
particular cases some of this through-the-fence agreements have 
been given in deed by a Federal agency, and I am talking about 
the resolution trust, the RTC. When they sold some of this 
property, in the selling of it they actually gave the person 
they sold to through-the-fence rights, and they have not been 
able to use it. So I would just like to know how you feel about 
that, number one. And number two is that we do have some 
residential through-the-fence that is already there, do we not?
    Mr. Comer. No, sir, not on any of our publicly owned and 
federally obligated airports.
    Mr. Westmoreland. OK. But you have evidently done that 
quite well, because I have not had any complaints from anything 
about anybody even trying to get a residential through-the-
gate. But we, of course, have had discussions about some of 
these through-the-gate agreements that people feel like they 
purchased with the land. Could you comment on that for just a 
moment?
    Ms. Comer. Yes, I would be more than happy to. In regards 
to that particular airport and issue that we are familiar with, 
as I mentioned when I described it, these issues are very, very 
complex, and I did not specifically point out that in that 
particular case, when the airport was purchased, along with the 
airport deed came existing through-the-fence access points for 
adjacent property owners. Those are deeded and the airport 
sponsor has an obligation to honor those access points. So, the 
plain and simple, they must honor those agreements, or they 
must honor the access.
    The difficulty becomes when the proponent or the owner of 
the adjacent property and the airport sit down to negotiate a 
formal access agreement, and that is where the difficulty comes 
in in many cases. But it is just a process that has to be gone 
through and developed, and at some point it will be 
successfully resolved. And I think we are very close in this 
particular issue to coming up with a resolution, but, as I 
said, that whole issue is so complicated because of zoning and 
jurisdiction. It is kind of one for the record books.
    Mr. Westmoreland. No, it certainly is. Trust me, I have 
heard a lot about it too. You know, I agree with Mr. Graves, 
Congressman Graves in the fact that he has questioned the 
personal property rights issue, and I do think that is an issue 
that needs to be addressed. We have gotten away from the life, 
liberty, and the pursuit of happiness part of our Bill of 
Rights, Constitution, Declaration of Independence, and the 
other things that allowed us the pursuit of happiness with our 
personal property. So I do think that is something that I hope 
we will all consider when we do this, that some people that 
have bought that property, thinking that they had the right to 
use it in the manner or for the reasons that they bought it, 
you know, we kind of need to let them do that.
    Now, anything that the Federal Government wants to do in 
the future, I think that those are some of the concerns that 
need to be addressed and need to be looked at, and before we do 
anything else, because I am sure this one in Georgia is not the 
only issue that the FAA has got with through-the-fence 
agreements across this Country. But I would hope that we could 
come up with some kind of policy just to try to resolve those 
things that are already backed up, keeping people and airports 
from being able to benefit to the financial rewards that some 
of these through-the-gate agreements allow.
    Thank you very much, Mr. Chairman. I yield back the balance 
of my time.
    Mr. Boswell. Thank you.
    The Chair recognizes the gentleman from Georgia, Mr. 
Johnson.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman.
    Ms. Comer, your sweet and gentle southern accent is 
comforting to me and reminds me of home, and you know what I am 
talking about, Lynn Westmoreland. But, at any rate, I do want 
to thank you for being here today, and it is my understanding 
that your office has worked hard to dissuade any through-the-
fence agreements in Georgia. Is that correct?
    Ms. Comer. Well, I think we have worked very hard to 
educate our airport sponsors as to the grant assurances that 
are there for them to continue receiving Federal funding and 
again ensuring compatible land use adjacent to the airport. So 
by doing that the airports make those decisions themselves, and 
in the majority of the cases they have chosen not to enter into 
residential through-the-fence agreements.
    Mr. Johnson of Georgia. So they pretty much decide whether 
or not they want to be in a position for Federal funding for 
their airports and then they make the decision.
    Ms. Comer. Yes, the decisions are made at the local level.
    Mr. Johnson of Georgia. Now, in the case of any situation 
such as Mr. Westmoreland just indicated, where does the power 
of eminent domain come into play?
    Ms. Comer. Interestingly, in the State of Georgia, we do 
not own or operate any airports, so the eminent domain issue is 
a local issue with the local government.
    Mr. Johnson of Georgia. Does that ever come in terms of 
local governments deciding whether to allow for the through-
the-fence agreements or to mitigate these agreements that may 
already be in existence by way of eminent domain so that they 
can be eligible for Federal funds?
    Ms. Comer. Actually, the acquisition of private property 
adjacent to the airport has been a very successful mitigation 
measure. For the residential through-the-fence issues we really 
haven't had any property acquisition of those parcels because 
the proponent of those proposals has changed their plans and 
not decided to use it in that manner. But in other commercial 
through-the-fence operations airports have chosen to purchase 
that property, and certainly in every opportunity our airports 
strive not to have to use eminent domain as a means to acquire 
that property. Sometimes it takes a little bit longer, but 
continued negotiation on those issues typically is pretty 
successful. But we have had airports condemn adjacent property 
in our State.
    Mr. Johnson of Georgia. Tell me, can you give us a little 
insight into how many of these types of agreements have been 
proposed in Georgia?
    Ms. Comer. Residential through-the-fence access agreements?
    Mr. Johnson of Georgia. Yes.
    Ms. Comer. We probably see maybe six, seven proposals a 
year. And that has been pretty continuous over my 13 years here 
in the State of Georgia.
    Mr. Johnson of Georgia. OK.
    Ms. Lang, what is the FAA'S role in reviewing through-the-
fence agreements prior to their being signed?
    Ms. Lang. Well, I think part of the issue is the FAA is not 
always consulted on these agreements. In fact, we are finding 
in many cases their existence after the fact and after changes 
have been made to the airport layout plan that would 
potentially create problems putting an airport in 
noncompliance. And by noncompliance, I really want to stress 
what that means. When a local government makes the decision to 
take a Federal grant by laws established by this Committee, 
they sign up to operate and manage that airport in very 
specific and particular ways, including providing to the FAA an 
updated airport layout plan, or ALP when they make any changes 
on the airport. And on a lot of the things that we are finding, 
we were not consulted. Had we been consulted in advance, we 
would have been able to work with the communities to deal with 
that.
    The fact of the matter is the FAA has long discouraged 
through-the-fence, whether commercial or residential, in this 
Country. The objective is to try to keep as much of the 
activity related to those uses, whether they are commercial or 
private aviation operators, on airport to generate money for 
the airport.
    Mr. Johnson of Georgia. Mr. Coyne, would an expanded FAA 
role in the drafting of through-the-fence agreements help 
prevent an airport from being in noncompliance or are through-
the-fence agreements simply unworkable?
    Mr. Coyne. Well, I think the FAA'S role is going to 
continue along the way it is now, being part of this equation, 
an important part of this equation, setting the national 
policy, and that is what this Committee and the FAA work at 
doing, is setting the national policy so that we don't have one 
small airport in one part of the Country defining what our 
national policy is and then having some lawyer in another part 
of the Country saying, hey, well, you did it over there, let me 
do it here, and all of a sudden the whole national air 
transportation policy starts to unravel.
    We think the FAA has a very important role but, as she just 
said, the local airport sponsor has a responsibility as well to 
communicate to the FAA, to communicate with the State and so 
forth when they have requests like this. But I think as a 
general rule the public use airports should be well advised 
that both residential and commercial through-the-fence 
agreements are not a constructive part of a national air 
transportation policy.
    Mr. Johnson of Georgia. Thank you. My time has expired.
    Mr. Boswell. Thank you.
    The Chair recognizes the gentleman from Kentucky, Mr. 
Guthrie.
    Mr. Guthrie. Thank you, Mr. Chairman. And I will yield my 
time to Mr. Graves from Missouri, and at the conclusion of his 
remarks yield back the balance of my time.
    Mr. Graves. My question is for Ms. Lang. Just out of 
curiosity, you just said that you want it to be on airport and 
to generate revenue for the airport. How did you put that? You 
want any activity around the airport to generate revenue for 
the airport.
    Ms. Lang. Correct. It is a Federal assurance in the law 
that airports are to be self-sustaining. Congress, makes money 
available to the FAA, to give airports money to build the 
infrastructure associated with airport operations, but we also 
give land in order to develop the businesses that support 
aeronautical activities and in turn produce revenues to make 
the airport a financial, healthy operation. I think it was a 
very wise law that Congress passed. You want to keep the money 
on airport to keep the airport healthy.
    Mr. Graves. OK. Well, how does having a residential 
through-the-fence agreement, how does it prevent that from 
happening?
    Ms. Lang. So let's take that apart in a couple of pieces. I 
mean, as a general rule, airports have sufficient land and, in 
fact, grant funds are eligible for airports to build T hangars 
on airport has a way of making money and, at the same time, 
accommodating private aircraft owners who would like to base 
their aircraft on public use airports. So the number one 
objective is for that aviation interest to be accommodated on 
airports so the money conveys to the airport.
    The other problem, though, with residential through-the-
fence is really fundamentally one of residential encroachment, 
and the fact that in providing a through-the-fence access we 
have had a couple of major problems come up. Number one, there 
isn't always economic parity, and the FAA has received 
complaints from on-airport tenants that they are subsidizing 
the operation and maintenance of the airport because off-
airport tenants are not required to pay comparable fees. That 
is in fact a violation----
    Mr. Graves. Well, let's stop right there.
    Ms. Lang. That is a violation of a Federal assurance on 
economic non-discrimination.
    Mr. Graves. Let me ask you that. In fact, I think it would 
be a great opportunity because you can still have T hangars. 
But you can expand your airport through through-the-fence, but 
I certainly wouldn't expect a community or a county to have a 
through-the-fence agreement without being compensated for that 
access. That person who has a through-the-fence agreement 
should pay exactly what the same fee as that person that is 
going to rent a T hangar. In many cases, there are airports all 
over the Country that the hangars are privately owned, but they 
lease the property underneath them. But why not just have them 
pay the same access fee? And that is generating income for the 
airport and allowing expansion without even using airport 
property that is still available for future expansion.
    Ms. Lang. Congressman, I think you have raised a very fair 
point, but it is much more complicated to actually get those 
practices into compliance. I am going to go to my colleague 
from the State of Oregon. It took us five years to get the 
Independence Airpark, and it really looks like an airpark, to 
have the homeowners and off-airport users pay equitably with 
the on-airport operators. Five years to correct what was an 
economic matter of discrimination.
    Mr. Graves. But it was done.
    Ms. Lang. You know, it was done, but it was complicated. 
Now, we still have what I think really is the fundamental 
question before this Committee, which is whether or not we 
believe a home--and a hangar home, in the end, it is still a 
home--is in any instance compatible with the long-term vision 
and look, operation of an airport. That is the fundamental 
question.
    Mr. Graves. Real quick, and I won't take too much time 
because I know other Members have to get going and I will come 
back to myself later. Again, just like in Independence, that is 
still private property, and if there was no access to the 
airport, you could still build a house on that property, could 
you not?
    Ms. Lang. Congressman, I would like to, if I could, explain 
what I think the layers are that we approach. We look at the 
development of the airport system in the United States at 
federally obligated airports. We give airports the 
infrastructure they need to own and operate that facility. But 
we also give millions and millions and millions of dollars to 
those same communities to develop compatible land uses around 
the airport to avoid uses that harm or injure the current or 
long-term operation of the airport. Homes, historically and 
legally, and I think Mr. Coyne correctly pointed out the case 
law, are the most difficult challenge to expanding airports in 
the United States and frankly around the world.
    Mr. Graves. But does it prevent it? I am running out of 
time and I want to be respectful of the other Members, so I 
apologize for shutting you off, and we will come back. But does 
it prevent it? Does anything prevent somebody from building a 
house on that property?
    Ms. Lang. Only to the extent that the local zoning 
authorities properly zone compatible land uses around the 
airports.
    Mr. Graves. And we are back to the local issue.
    Ms. Lang. So it is in the end a local responsibility to do 
appropriate land use planning.
    Mr. Graves. Thanks for your question. Again, I want to be 
respectful of the other Members.
    Mr. Boswell. Thank you.
    The Chair recognizes Mr. DeFazio from Oregon.
    Mr. DeFazio. Oregon. Come on now, Leonard, we have been 
together many years.
    Mr. Boswell. Oregon. Excuse me, sir. I stand corrected.
    Mr. DeFazio. Thank you. Thank you.
    In answer to Ms. Lang's question which you posed just 
before that last exchange about compatibility, I would say 
residential development is not always compatible and it is not 
always incompatible. I mean, I know that is probably not a 
satisfactory clear line answer that satisfies bureaucratic 
concerns, but I think there is a way that this can be done and 
be done properly.
    Let me ask. It took five years in Independence, Oregon to 
get what you said was equitable compensation from the 
homeowners. What if the regulation just stated before any 
further AIP funds are invested in any of these airports, those 
airports must negotiate equitable compensation agreements with 
beneficial property owners? Would that satisfy the Federal 
concern? I mean, I am asking Ms. Lang, but I would be happy to 
have Mr.----
    Ms. Lang. I would say it satisfies that particular 
assurance. There are 39 assurances. When a community accepts a 
grant, they sign up to own and to operate the airport in a 
manner consistent with those.
    Mr. DeFazio. I understand.
    Ms. Lang. And to be part of the national system is to have 
signed up to keep the surrounding lands available in a way to 
keep the airport expandable and adaptable. Putting a 
residential community of 200 plus homes adjacent to an airport 
would make it very difficult in the event that sometime in the 
future that community needs to expand or do something to 
enhance the aeronautical operation of the airport. I mean, 
history----
    Mr. DeFazio. If I could, then, given the fact Oregon has 
comprehensive land use planning, given the fact that most 
people know it has the largest number of residential through-
the-fence access agreements, as I understand, in the Country, 
are there inhibitions for the future of that airport or the 
anticipated future of that airport from what we have there? Mr. 
Swecker?
    Mr. Swecker. Well, I would point out that up until 2009 it 
wasn't a violation of a grant assurance in the language of that 
5190 document, so Independence, the one we are talking about, 
was in place since the 1970's and in harmony with the FAA. 
There are others in the State that maybe could use addressing, 
that maybe have a safety issue. And I am not going to mention 
them by name, but we would agree with the FAA on some 
circumstances that there is room for improvement.
    So does that answer your question, I hope?
    Mr. DeFazio. Yes. I mean, where I am coming from is just 
where I started, which is I think there are some places where 
this could be appropriate, beneficial, economically beneficial, 
could potentially provide benefits for the operation or 
continued operation of the airport, because Oregon is kind of 
struggling with its general fund money and I would see that in 
other States. On the other hand, we want to meaningfully 
address the issues of safety. We should never compromise safety 
and the FAA does a good job of pushing on those issues.
    So I think there is some middle ground here that we are not 
contemplating as we move forward. I mean, this is what I call 
lowest common denominator regulation, which is there is some 
really abusive thing over here, there is something really good 
over here, we will draw up the regulations targeted at all the 
abuses going on over here, even if that causes extraordinary 
problems or difficulties over here with the people who are 
doing it right. That is my concern.
    One particular question. This is one that is of particular 
concern with the letter from the FAA to the residents in 
Independence. And, as I understand, the present proposal would 
say no new agreements; existing ones could continue. But then 
there becomes the issue of is there a property right. Because 
those people paid more for that home because it has that 
attribute, and if they can't pass that on, and I understand 
there have been some problems, then it seems to me we are 
getting I don't know that we can say it is a takings issue, but 
it is an issue of real concern to me.
    Mr. Swecker?
    Mr. Swecker. There is concern among realtors, and if people 
want to sell their homes, they are very concerned about the 
verbiage in even the revised wording that might be subject to 
interpretation, and not black and white, that there might be a 
potential that houses couldn't be resold or that the terms of 
the resale or the access agreement might terminate. In this new 
documentation it talks about, under additional new access, the 
term might be limited to 20 years. That would be of concern if 
additional access and anything in that airpark were determined 
to be additional, that it could impact future sales and the 
value of those homes.
    Mr. DeFazio. I see my time has expired, but we have had a 
debate for as long as I have been in Congress over something 
that is a little bit of a different twist on this, but it is 
residential development on forest service lands where people 
have been granted what were renewable leases. But then the 
question is whether the Government is getting a fair return, 
which we are dealing with, but, secondly, at one point there 
was a bad era where the Federal Government just went in and 
refused to renew any of those leases and actually went in and 
put junk in wells to destroy wells and bulldozed homes and 
things like that.
    I just think in all of these instances we have to protect 
the taxpayers and the public interest, and certainly safety. On 
the other hand, we have to be cognizant of some of the 
potential benefits that can come from these things. So that is 
where I am at.
    Thank you, Mr. Chairman.
    Mr. Boswell. I think the gentleman from Oregon. I have to 
set it right that way.
    Mr. DeFazio. You got it right that time.
    Mr. Boswell. I know. I wanted to prove that I could. But I 
also wanted to acknowledge that you made some comments that 
correlate with what I said earlier, too. We can work this out 
if we just make up our minds to do it.
    Second round. Mr. Graves.
    Mr. Graves. OK, good. Thank you, Mr. Chairman, I appreciate 
it.
    My question is for Dr. Blue, and it goes back to what I was 
talking about with Kate. You have a residential through-the-
fence agreement.
    Dr. Blue. That is correct.
    Mr. Graves. Do you take a little bit of offense, not a 
fence, to somebody saying that a residential through-the-fence 
agreement doesn't contribute to the viability of the airport?
    Dr. Blue. Well, I moved from on the airport, where we had a 
lease of land with our own hangar, to off the airport, where I 
own the land underneath the hangar, and I pay more to the City 
of Driggs, which is the airport sponsor, than I did when I was 
on the airport.
    Mr. Graves. So you are contributing to the viability.
    Dr. Blue. I am contributing more to the viability.
    Mr. Graves. And, again, I think that is important, and it 
comes back to--and it is unfortunate and I think, FAA, you are 
really, really missing the boat on this when you say no more 
new agreements, because I think every airport is different, and 
I think we ought to take a look at these. And if it doesn't 
work in Georgia, that is fine; that is your decision or the 
local community's decision, after you have educated them, to 
use your terms, or in the case of Elmira Corning Regional 
Airport, that has been your decision and that should be the 
case.
    I completely disagree with this idea that you can't expand 
an airport with through-the-fence because we still come back to 
this.
    Kate, you used the term buffer zone. Well, where does that 
buffer begin and where does that buffer end? All of these 
instances, whether we are talking about Independence or we are 
talking about Driggs or whatever, there is property private 
right up against the fence of that airport, and that private 
property could be used for residential land development; it can 
be used for anything. And you can't prevent that. There is 
nothing that is going to prevent that. So to save it just 
because you have an access point at the airport that is 
preventing the use of that airport for the public purpose or 
preventing the development of that airport is completely false.
    Go ahead.
    Ms. Lang. So there are a couple of ways that the FAA likes 
to work with local communities in thinking about exactly this 
issue, because I think it is a totally correct question to ask. 
We do it two ways, two principal ways. Number one, we give 
airports money to do planning, master planning on their 
airports, and we say look at the demand you have today and 
anticipate where you think you are going to be 20 years from 
now. And in many cases the 20-year vision is something beyond 
the current airport boundary of the airport, and in those 
cases, where we agree that the future and what they see around 
the corner is the right future, we actually work with those 
communities to buy the land to create buffers for future 
development.
    In other cases the boundary of the airport is going to be 
pretty much, at least for the foreseeable future, the boundary 
of the airport, and it has what it needs to be to meet its 
expected growth. Not everyone needs to expand their boundaries. 
But in those cases we really urge the community, through grants 
from the Federal Government, to work at really thinking about 
what are the most compatible best uses around that airport that 
keep the development and the operation of the airport 
compatible with what is going on with the community.
    Historically, the interpretation on that has been that 
homes are not compatible with either the current or long-term 
uses. And I think that is really the fundamental public policy 
question, and I want to really emphasize something here. We 
have put out a proposed policy. We have heard you loud and 
clear, and I agree with Congressman Westmoreland and 
Congressman DeFazio. In instances in which there are existing 
legal arrangements, we have to honor those. We recognize that 
communities went into those. There are legal liabilities and we 
have some culpability in the creation of some of those, and we 
have to responsibly manage them going forward.
    The real question about the future is what do we do and do 
we, in certain instances, say that homes are not, per se, a 
violation of compatible use and could enhance an airport. That 
is an extremely difficult criteria. We have struggled very hard 
with threading the needle for the existing locations. Going 
forward, we have not been able to find the right recipe. As we 
have advised, we sat down with all of the community, AOPA, EAA 
and we have said if you think there is criteria that the 
Federal Government should consider, provide it to us during the 
comment period. We think it is a high bar, but I think it 
remains to be seen whether or not, going forward, it is an 
insurmountable one. And, as I said, we are very open-minded to 
see what the input of a very passionate community is on this 
issue.
    Mr. Graves. I think it is important, again, that we just 
don't bar permanent from now on. I still think it comes down to 
a local decision, and the fact of the matter is very few 
communities, particularly small communities with small airports 
are going to spend the money, taxpayer dollars, when they are 
already short, to fix the road or whatever it is in town, to 
spend the money to buy adjacent property around an airport in 
the hopes that in 20 years something is going to come around.
    Now, having said that, though, I also know a lot of 
communities that do buy adjacent property for a potential 
business park. They love locating business parks out by the 
airport because it is industrial use. They don't care about the 
noise. And what is more, I have a lot of communities, and I 
know this is different, but it is still talking about hanging 
on to that property and holding that property to be used; it is 
not residential, but they also like the idea of being able to 
offer up as a business incentive to attract Caterpillar, or 
whatever the case may be or whoever it is, access to that 
airport. That is a huge economic development tool when you can 
say, hey, you bring your company in here and we will give you 
access.
    So I think, again, it comes down to--I just hate the idea 
of the FAA just saying from now on none. It still comes down to 
a local decision and, again, if the State of Georgia doesn't 
want it, then that is the State of Georgia's decision, along 
with the local community. A perfect example, local community 
has decided that they don't want residential through-the-fence, 
or at least your regional airport is, and that has been your 
decision, and it should be your decision. Driggs has decided 
they want them, and it is working, and they are making more 
money from through-the-fence agreements than they were before. 
Oregon is a great example of the way it works, but it still 
comes down to the local decision, and I hate the idea of a 
total prohibition.
    Again, I went over again, Mr. Chairman.
    Mr. Boswell. OK, Mr. Westmoreland, please.
    Mr. Westmoreland. Thank you, Mr. Chairman.
    Mr. Blue, at some other time, not now, but I would be 
interested in trying to figure out how a Democratic coroner 
candidate campaigns against a Republican coroner candidate. I 
can't imagine what your issues would be, but at some other time 
we will discuss that.
    Dr. Blue. Well, if I am elected, I hope you never need my 
services.
    Mr. Westmoreland. I don't know, those would be some 
campaign issues. But you made a comment about, I think, a bus 
stop at the Federal Government, because part of what I have 
heard is that this is Federal money going into these airports 
that would enhance the property value of the people that had a 
residential through-the-gate. But isn't it true that with some 
of the stimulus money that we spent, or other Federal money we 
spent, we pave streets, we put in water lines, we do sewer 
systems. And if you live on a dirt road and through some type 
of Federal money somebody came in and paved the street that you 
live in, would that not enhance your property value through a 
Federal funding mechanism?
    Dr. Blue. It would obviously enhance us. The argument that 
we are going to benefit because we have a through-the-fence 
agreement is just a silly argument and I really think it is 
just a bee in the bonnet in some of the FAA staff members who 
don't like that idea.
    Mr. Westmoreland. Let me ask you this, and this goes to the 
buffer. And I would like to just ask each one of you, if you 
could, just tell me what your ideal buffer would be.
    Ms. Lang, what would your ideal buffer be, 1,000 feet, 500 
feet, half a mile? What would your buffer be?
    Ms. Lang. Well, you know, the one thing, Congressman, I 
think we all agree on is if you've seen one airport, you have 
seen one airport. I think we have unanimity of view at least on 
that point.
    The answer is different in the facts and circumstances of 
every airport we look at. I mean, frankly, you look at the 
current operation, the impact on the surrounding community, 
but, again, this is a really important part of the American 
tradition. We expect airports to look around the corner and say 
what are you going to need in 20 years from now. So we design 
and do buffers based on the current operation and the projected 
operation, and then we layer on that.
    You know, I started in local government. I began my 
aviation career in local government. Local government does its 
job right when it has responsible leadership on local zoning, 
and this is really the other thing we provide, the other tool 
we give airports is money to come up with ways to make the 
airport compatible with the demands of the community. So I 
think the answer is it depends on the particular needs of the 
airport and the community going forward.
    Mr. Westmoreland. So if that is your answer to that, would 
it also not depend on local community's need for revenue or 
services to be able to allow some of these through-the-fence 
agreements?
    Ms. Lang. Well, again, I think there are a lot of ways in 
which the Congressman and I agree. I mean, I look at industrial 
parks. I think industrial parks are a wonderful example of a 
compatible collateral development around an airport. And you 
know the amazing thing about industrial sites is they don't 
complain about noise. I mean, that is a huge benefit to the 
system.
    So we really like to encourage the kind of development that 
adds. And there are properly structured through-the-fence 
operations that do support industrial operations. It is a 
compatible land use and it is one, when necessary, is also 
easier to extinguish than those that convey with a private 
property or a home. It is just a fact that homes are just much 
more difficult to move.
    Mr. Westmoreland. No, I understand.
    Ms. Lang. And they are much more willing to move.
    Mr. Westmoreland. I know, but you have to some kind of idea 
of what you think a good buffer might be. And I agree with 
Chairman Oberstar when he said, look, if you build a house next 
to an airport, if you don't know there is an airport there, you 
have bigger problems than building a house next to an airport.
    Ms. Comer, how about you? What would you think a great 
buffer would be around an airport?
    Ms. Comer. I'm sorry, I think I have to kind of echo Ms. 
Lang's remark. I think it really depends on exactly what you 
are trying to buffer against. If you were to ask me about 
landfills near airports, I would tell you five or six miles. 
Just different issues where you are looking at obstructions----
    Mr. Westmoreland. It is only a half mile in Georgia, isn't 
it?
    Ms. Comer. No, sir.
    Mr. Westmoreland. It is not more than a mile.
    Ms. Comer. Actually, there are no State laws that address 
the location of landfills adjacent to airports, except there 
are some Federal laws.
    Mr. Westmoreland. OK.
    Ms. Comer. So that is a good thing.
    Mr. Westmoreland. Because we have a landfill that was built 
too close to an airport and I will have to call you on that.
    Ms. Comer. There are many of those that exist that are 
there, and they are going to continue to exist there until they 
care closed.
    Mr. Westmoreland. Mr. Swecker?
    Mr. Swecker. Five miles of farmland in all directions.
    Mr. Westmoreland. OK.
    Mr. Swecker. Seriously, residential access, residents with 
access to an airport aren't going to be the ones that complain; 
it is the residential neighborhoods that are encroaching on an 
airport that aren't associated with aviation, those are the 
ones that complain. I know this from experience.
    Mr. Westmoreland. Ms. Crook?
    Ms. Crook. Again, I can only echo what Ms. Comer and Ms. 
Lang have said, that there are many different types of buffers. 
But if you are talking about a buffer for a residential use, 
then I would look at the future projected noise footprint.
    Mr. Westmoreland. OK.
    Mr. Coyne. I would stress the noise footprint too. 
Obviously, the approaches coming into the runways, you are 
going to have more distance there than on lateral sides. But 
generally speaking, 50 or 55 dB level is something where you 
want to keep the residents away.
    But I do want to emphasize something here. Just because we 
believe a current neighbor is going to be friendly to the 
airport, you cannot count on that in the future, and I often 
use the example of Santa Monica Airport. Santa Monica Airport 
was built during the Second World War, and they built hundreds 
and hundreds of homes for the workers at that factory that was 
right there at the airport, and everyone said, oh, their job is 
at the airport; these houses are always going to be proponents 
of this airport.
    Well, today, as I am sure Ms. Lang and others can tell you, 
the people who live in those houses have long since forgot that 
that house was part of our Nation's building the B-29s and so 
forth that were so critical at that airport, and now many of 
them have all turned into, somehow, anti-airport activists. And 
I am concerned that this same thing could happen at any 
residential location.
    Mr. Westmoreland. I understand.
    Mr. Blue?
    Dr. Blue. I am not sure what that number is, but there are 
things that the airports can do to mitigate their impact 
related to traffic patterns and noise abatement procedures. 
However, in the Driggs setting, where we received $7 million 
two years ago to upgrade our runway from a B-2 runway to a C-2 
runway, they talked a lot about the residential through-the-
fence access, but they didn't talk about the middle school that 
they moved the runway closer to that is adjacent to the airport 
on the other side. So, I mean, the FAA can complain about 
residential through-the-fence, but they are not looking at the 
whole picture.
    Mr. Westmoreland. Well, plus, too, if you get into this 
buffer situation, you could have 1,000 feet, 2,000 feet around 
an airport that is not really guarded, because your fence is 
going to be around the airport. I mean, you are talking about 
wildlife and other things, people getting close to a plane 
taking off or landing. And then if you fence in the outside of 
it, now you have an entrapment between the two fences for 
things also.
    So I just hope that we will study this very carefully and 
that the FAA will listen to the input. But, you know, we passed 
a law in Georgia that we had people that lived close to Fort 
Benning, and they didn't understand they were going to be 
shooting guns at Fort Benning. Well, if you live adjacent to a 
fort, they are going to shoot guns. So we had to pass some type 
of legislation in Georgia that said if you move close to a 
fort, this is the buffer you have to have between the fort and 
where your house is. And if you do that, then you don't have 
any legal ability to file suit against them with the noise.
    Thank you very much, Mr. Chairman. I yield back.
    Mr. Boswell. Well, thank you, Mr. Westmoreland, for that 
line of discussion.
    We are going to move to closing here pretty quickly, but 
before I recognize Chairman Oberstar, since he wasn't here, I 
made this comment, Mr. Chairman. I want you to hear it from me. 
I had made this comment when I took the Chair, that we all 
recognize that you are very safety conscious. Nobody questions 
it, none. None of us whatsoever. And I recognize that and 
always will because I know you believe it and practice. I just 
made this comment.
    I do have to say, though, that pilots do understand that 
they must follow and comply with instructions, whether it is 
entering a taxiway or runway or back-taxying or whatever goes 
on in what they do. It would seem possible and reasonable to me 
that, through education, signage, and firm regulation, that 
this question can and, I might add, should be worked out in a 
safe and respectful manner.
    So I realize this is a hearing and exchange of ideas, and I 
think it has been extremely good. I would like to recognize 
you, Mr. Chairman, and then Mr. Graves, and then we will be 
finished.
    Mr. Oberstar. I think Ms. Norton----
    Mr. Boswell. No, she said she didn't have any questions.
    Mr. Oberstar. No questions. All right.
    The safety issue I explored sort of briefly with Ms. Lang. 
I think there needs to be a reemphasizing and reenforcing of 
the safety practices that pilots must adhere to under any 
circumstances, whether it is through-the-fence agreement or on 
a major hub airport. We learned long ago, if you are a general 
aviation pilot, you do have a right to access MSP or JFK or 
LaGuardia, but you then have to have all the proper equipment 
to get into that airspace; you have to have a Mode C 
transponder, you need a T-cast, you need all the electronics to 
be able to operate in that environment. Similarly, on a general 
aviation public use airport there are rules, regulations that 
have to be adhered to, and pilots, maybe you need a refresher 
course for them, but that is certainly the primary concern.
    Mr. Westmoreland asked the intriguing question of how much 
of a buffer do you want, and I think Ms. Lang said if you have 
seen one airport, you have seen one airport. It depends on the 
layout of that airport and the location, and depends on whether 
you have jet aircraft operating in the proximity of a landfill. 
If you do, there is a very specific FAA requirement for 
distance between the landfill and the airport operations area. 
We saw how important that is with US Airways landing in the 
river in New York City. You have a bird strike in a jet 
aircraft and it is extraordinarily dangerous.
    There was no objection raised at all by the people in 
Brainerd in my district when they were extending the runway, 
and there was a landfill that had to be removed, and there was 
some objection from some of the members of the county board, so 
the airport authority asked me to come out and talk with them, 
and I laid it out for them. You want to extend the runway? I 
want the runway extended? You have to move the landfill. And 
they did, to their great credit.
    So safety concerns are the first.
    But, Ms. Comer, last night, reading your testimony, I was 
intrigued by the second page of your testimony. You say one of 
our airports, in 2006, original proposal has a substantial 
residential component, the water feature, hangars, new fixed 
base operation. The water feature would provide a habitat for 
birds and wildlife and pose a safety hazard. That is the kind 
of thing that you have to pay particular attention to. I can't 
imagine anybody wanting a through-the-fence agreement wouldn't 
acknowledge that that is an issue.
    Is there anyone at the witness table that says we ought to 
let that happen?
    [No response.]
    Mr. Oberstar. Well, I didn't see any hands go up.
    But the airport sponsor does not have jurisdiction for 
zoning. Now, that is a unique problem. If the zoning authority 
resides in another county, you have an airport authority here 
and another county over there, there is a conflict of law, a 
conflict of jurisdiction. You are still trying to work that 
out, apparently.
    Ms. Comer. Yes, sir, we are.
    Mr. Oberstar. And you have no resolution in sight at the 
moment, at least as of your testimony.
    Ms. Comer. For the dedicated through-the-fence access 
agreement I think there is a resolution in sight that would 
contain primarily aeronautical activity and no residential or 
water features or anything that would be an attractant to 
wildlife. But as far as this airport resides in one county, but 
the airport owner is the adjacent county. So they don't have, 
obviously, the jurisdiction for right of eminent domain and 
zoning around the actual airport property, so it is just a very 
difficult issue.
    Mr. Oberstar. Left to your own devices, you are going to be 
able to work this out, apparently.
    Ms. Comer. We have been in there for five years and we are 
not giving up.
    Mr. Oberstar. Five years? Oh my goodness. That is a long 
time.
    Ninety-one general aviation airports in Georgia?
    Ms. Comer. That are federally obligated and public use.
    Mr. Oberstar. Yes. And a statewide plan to place every 
Georgian within a 30-minute drive of an airport capable of 
accommodating 85 percent of the corporate aircraft line today. 
That is an admirable aviation policy. I was really struck by 
that. I don't know of another State that has such a--there may 
be others who have such a policy, but I think that is very 
sensible. Very progressive.
    Ms. Comer. We developed those guidelines through a systems 
planning grant that FAA provided probably about 20 years ago, 
that was the very first one, and we have a tiered system of 
airports.
    Mr. Oberstar. I was very impressed with that. We in 
Minnesota are very proud of our, but we don't have that kind of 
policy in our State. I am going to take that up with our 
airports director; something we ought to be thinking about. I 
always learn something at our hearings.
    Now, Ms. Lang, what are the next steps in the rulemaking 
process?
    Ms. Lang. Chairman Oberstar, it is a policy, so it is not 
subject to the same kind of rigor that a rulemaking is, but it 
is out for public comment. The docket closes on October 25th 
and we are quite anxious. We are trying very hard. I emphasize 
the fact that we have tried very much over the last six or 
seven months to go out and really have first-person 
conversations with the affected communities here. There has 
been a lot of energy on this, and when you involve people's 
homes, that is a very emotional issue.
    We are very interested in getting it right and 
understanding the existing situations, and in having what I 
think is a very important conversation with the aviation 
community and this Committee on how to really advance the 
public policy going forward. Are these agreements that are 
replicable, duplicable that we can come up with transparent 
policies on for the future and still have the long view that 
this Committee expects us to have?
    So, as I have said, I hope the last seven months show that 
we have really approached this with fresh eyes and open minds. 
We put it out for comment rather than going final. This is the 
second time out with this draft because we really are trying to 
hit center line on it. So we are very much looking forward to 
the feedback and would be happy to report back to this 
Committee on the comments we receive on this second round.
    Mr. Oberstar. Is this process covered by ex parte 
requirements?
    Ms. Lang. I am going to look for one of my lawyers. I don't 
think it applies at the same level that rulemaking does. I 
mean, it is a policy change.
    Mr. Oberstar. Then in that context, let me ask that in the 
next couple of weeks, with consultation with Mr. Graves, Mr. 
Boswell, and others on the Committee, that we invite you back 
to have a briefing on the status before you finalize things.
    Ms. Lang. We would absolutely welcome that conversation and 
really do appreciate the support of this Committee and your 
leadership in advancing these policy discussions.
    Mr. Oberstar. Good. On that note I think we have a pass 
forward. Thank you.
    Mr. Boswell. Thank you, Mr. Chairman.
    Mr. Oberstar. Let me just ask Mr. Graves. I will yield to 
him, if you think that would be an acceptable approach.
    Mr. Boswell. Yes.
    Mr. Graves, he wants to know if you wanted to respond to 
his offer.
    Mr. Graves. Oh, absolutely.
    Mr. Oberstar. All right. Good.
    Mr. Graves. Listen, Mr. Chairman, and I know you always 
want to do the right thing and get this right, and I think we 
can get it right. You know, I hate the idea of a blanket policy 
that just ends this from now on. I think every airport is 
different, and every airport ought to have the opportunity. So, 
you know, I very much appreciate being open with this.
    And I would like to point out a few things before we finish 
up.
    Mr. Boswell. Well, you are going to have some time. You are 
yielding to him right now.
    Mr. Oberstar. No, the gentleman may have his own time.
    Mr. Boswell. OK. At this time I would recognize Mr. Graves.
    Mr. Graves. Well, I just want us to remember, and I know 
everybody in this room obviously is associated with aviation, 
but when we are talking about this, let's remember we are 
talking about medium and small airports. You get a lot of 
confusion out there that what we are talking about in some 
cases is airports with commercial service, and that is not the 
case. You don't have agreements like this. You may have some 
business agreements through-the-fence, but you don't have 
residential.
    I also think we have to remember, too, we are talking about 
access. You know, the two poster childs for residential 
through-the-fence agreements are Driggs Airport and 
Independence Airport, and nothing is preventing that 
development from taking place outside of the airport. We are 
talking about access. That is all it is, is access. And I think 
people who have that access ought to pay just as much and 
contribute to the viability of that airport as anybody that is 
leasing a hangar or leasing the property underneath the hangar, 
and I think we have to remember that.
    But I have heard not one single thing today, not one single 
argument that prevents the expansion of an airport that has a 
through-the-fence agreement. I haven't heard one single 
argument that it prevents the viability of that airport in the 
future. In fact, I think it enhances the viability because you 
get more people around there, more people paying attention.
    And I want to promote aviation, I don't want to scare 
people off from it. I want as many people from the community 
out there as I can possibly get, because I am scared to death 
about the future of aviation and the fact that we just don't 
have as many pilots as we used to have, or people that are 
interested in it. And there isn't one single argument that I 
have heard today that prevents the public use of that airport 
when it has a residential through-the-fence agreement, not one 
single argument.
    I think the worst thing that we can do is have the Federal 
Government come in and say that local communities are not going 
to be able to do this anymore if you want to receive tax 
dollars. Remember, those are tax dollars; they are contributed 
by people who buy aviation fuel or people who buy tickets, and 
it goes to the aviation trust fund, and that is what is used to 
draw AIP funds to develop infrastructure.
    The worst thing that we could do is this is another case 
where the Federal Government would come in and say you cannot 
do this. It still comes down to a community decision, and if 
the community decides that they don't want this, then the 
community ought to have that choice. If the county decides they 
don't want it, then the county ought to have that choice. If 
the airport board decides they don't want it, then they ought 
to have that choice. Whoever is responsible.
    And there is nothing wrong with guidance from the FAA, 
because you are there to protect the airspace and to protect 
that public use, but let's be reasonable on this. You said it 
yourself, every airport is different. So let's not just say 
from now on there aren't going to be any more new ones. Let's 
look at them on a case-by-case basis.
    And I appreciate, Mr. Chairman, again, your willingness to 
do this hearing. You are always very gracious in that respect.
    And thank you, Leonard, for Chairing today and taking the 
time.
    And all of our witnesses, thanks for coming out. I know you 
came a long way.
    Mr. Boswell. Well, thank you, Mr. Graves.
    Again, Mr. Chairman, you have suggested a way we can move 
forward on this. We appreciate it. I look forward to that and I 
think Mr. Graves summed it up very well. You have a big 
responsibility. Nobody is doubting that. And I would concur 
with what he said in that regard completely, without repeating.
    All of you at the panel, you have been pretty good to have 
you here today. We have a good discussion going on, and it 
would be my hope that we walk before we run and we do this 
right. I think we will. I think we can.
    So, with that, we will have standard procedure on how we 
close out this meeting.
    Mr. Oberstar. The meeting is adjourned.
    Mr. Boswell. Well said. The meeting is adjourned.
    [Whereupon, at 12:27 p.m., the Committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T8459.036
    
    [GRAPHIC] [TIFF OMITTED] T8459.037
    
    [GRAPHIC] [TIFF OMITTED] T8459.038
    
    [GRAPHIC] [TIFF OMITTED] T8459.039
    
    [GRAPHIC] [TIFF OMITTED] T8459.040
    
    [GRAPHIC] [TIFF OMITTED] T8459.041
    
    [GRAPHIC] [TIFF OMITTED] T8459.042
    
    [GRAPHIC] [TIFF OMITTED] T8459.043
    
    [GRAPHIC] [TIFF OMITTED] T8459.044
    
    [GRAPHIC] [TIFF OMITTED] T8459.045
    
    [GRAPHIC] [TIFF OMITTED] T8459.046
    
    [GRAPHIC] [TIFF OMITTED] T8459.047
    
    [GRAPHIC] [TIFF OMITTED] T8459.048
    
    [GRAPHIC] [TIFF OMITTED] T8459.049
    
    [GRAPHIC] [TIFF OMITTED] T8459.050
    
    [GRAPHIC] [TIFF OMITTED] T8459.051
    
    [GRAPHIC] [TIFF OMITTED] T8459.052
    
    [GRAPHIC] [TIFF OMITTED] T8459.053
    
    [GRAPHIC] [TIFF OMITTED] T8459.054
    
    [GRAPHIC] [TIFF OMITTED] T8459.055
    
    [GRAPHIC] [TIFF OMITTED] T8459.056
    
    [GRAPHIC] [TIFF OMITTED] T8459.057
    
    [GRAPHIC] [TIFF OMITTED] T8459.058
    
    [GRAPHIC] [TIFF OMITTED] T8459.059
    
    [GRAPHIC] [TIFF OMITTED] T8459.060
    
    [GRAPHIC] [TIFF OMITTED] T8459.061
    
    [GRAPHIC] [TIFF OMITTED] T8459.062
    
    [GRAPHIC] [TIFF OMITTED] T8459.063
    
    [GRAPHIC] [TIFF OMITTED] T8459.064
    
    [GRAPHIC] [TIFF OMITTED] T8459.065
    
    [GRAPHIC] [TIFF OMITTED] T8459.066
    
    [GRAPHIC] [TIFF OMITTED] T8459.067
    
    [GRAPHIC] [TIFF OMITTED] T8459.068
    
    [GRAPHIC] [TIFF OMITTED] T8459.069
    
    [GRAPHIC] [TIFF OMITTED] T8459.070
    
    [GRAPHIC] [TIFF OMITTED] T8459.071
    
    [GRAPHIC] [TIFF OMITTED] T8459.072
    
    [GRAPHIC] [TIFF OMITTED] T8459.073
    
    [GRAPHIC] [TIFF OMITTED] T8459.074
    
    [GRAPHIC] [TIFF OMITTED] T8459.075
    
    [GRAPHIC] [TIFF OMITTED] T8459.076
    
    [GRAPHIC] [TIFF OMITTED] T8459.077
    
    [GRAPHIC] [TIFF OMITTED] T8459.078
    
    [GRAPHIC] [TIFF OMITTED] T8459.079
    
    [GRAPHIC] [TIFF OMITTED] T8459.080
    
    [GRAPHIC] [TIFF OMITTED] T8459.081
    
    [GRAPHIC] [TIFF OMITTED] T8459.082
    
    [GRAPHIC] [TIFF OMITTED] T8459.083
    
    [GRAPHIC] [TIFF OMITTED] T8459.084
    
    [GRAPHIC] [TIFF OMITTED] T8459.085
    
    [GRAPHIC] [TIFF OMITTED] T8459.086
    
    [GRAPHIC] [TIFF OMITTED] T8459.087
    
    [GRAPHIC] [TIFF OMITTED] T8459.088
    
    [GRAPHIC] [TIFF OMITTED] T8459.089
    
    [GRAPHIC] [TIFF OMITTED] T8459.090
    
    [GRAPHIC] [TIFF OMITTED] T8459.091
    
    [GRAPHIC] [TIFF OMITTED] T8459.092
    
    [GRAPHIC] [TIFF OMITTED] T8459.093
    
    [GRAPHIC] [TIFF OMITTED] T8459.094
    
    [GRAPHIC] [TIFF OMITTED] T8459.095
    
    [GRAPHIC] [TIFF OMITTED] T8459.096
    
    [GRAPHIC] [TIFF OMITTED] T8459.097
    
    [GRAPHIC] [TIFF OMITTED] T8459.098
    
                                    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
